<html>
<title> - AGENCY BUDGETS AND PRIORITIES FOR FY 2010</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





 
               AGENCY BUDGETS AND PRIORITIES FOR FY 2010

=======================================================================

                                (111-42)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            JUNE 3, 16, 2009

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure



                  U.S. GOVERNMENT PRINTING OFFICE
50-614 PDF                WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
ELLEN O. TAUSCHER, California        TODD RUSSELL PLATTS, Pennsylvania
LEONARD L. BOSWELL, Iowa             SAM GRAVES, Missouri
TIM HOLDEN, Pennsylvania             BILL SHUSTER, Pennsylvania
BRIAN BAIRD, Washington              JOHN BOOZMAN, Arkansas
RICK LARSEN, Washington              SHELLEY MOORE CAPITO, West 
MICHAEL E. CAPUANO, Massachusetts    Virginia
TIMOTHY H. BISHOP, New York          JIM GERLACH, Pennsylvania
MICHAEL H. MICHAUD, Maine            MARIO DIAZ-BALART, Florida
RUSS CARNAHAN, Missouri              CHARLES W. DENT, Pennsylvania
GRACE F. NAPOLITANO, California      CONNIE MACK, Florida
DANIEL LIPINSKI, Illinois            LYNN A WESTMORELAND, Georgia
MAZIE K. HIRONO, Hawaii              JEAN SCHMIDT, Ohio
JASON ALTMIRE, Pennsylvania          CANDICE S. MILLER, Michigan
TIMOTHY J. WALZ, Minnesota           MARY FALLIN, Oklahoma
HEATH SHULER, North Carolina         VERN BUCHANAN, Florida
MICHAEL A. ARCURI, New York          ROBERT E. LATTA, Ohio
HARRY E. MITCHELL, Arizona           BRETT GUTHRIE, Kentucky
CHRISTOPHER P. CARNEY, Pennsylvania  ANH ``JOSEPH'' CAO, Louisiana
JOHN J. HALL, New York               AARON SCHOCK, Illinois
STEVE KAGEN, Wisconsin               PETE OLSON, Texas
STEVE COHEN, Tennessee
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
PARKER GRIFFITH, Alabama
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico

                                  (ii)








            Subcommittee on Water Resources and Environment

                EDDIE BERNICE JOHNSON, Texas, Chairwoman

THOMAS S. P. PERRIELLO, Virginia     JOHN BOOZMAN, Arkansas
JERRY F. COSTELLO, Illinois          DON YOUNG, Alaska
GENE TAYLOR, Mississippi             JOHN J. DUNCAN, Jr., Tennessee
BRIAN BAIRD, Washington              VERNON J. EHLERS, Michigan
TIMOTHY H. BISHOP, New York          FRANK A. LoBIONDO, New Jersey
RUSS CARNAHAN, Missouri              GARY G. MILLER, California
STEVE KAGEN, Wisconsin               HENRY E. BROWN, Jr., South 
DONNA F. EDWARDS, Maryland           Carolina
SOLOMON P. ORTIZ, Texas              TODD RUSSELL PLATTS, Pennsylvania
PHIL HARE, Illinois                  BILL SHUSTER, Pennsylvania
DINA TITUS, Nevada                   MARIO DIAZ-BALART, Florida
HARRY TEAGUE, New Mexico             CONNIE MACK, Florida
ELEANOR HOLMES NORTON, District of   LYNN A WESTMORELAND, Georgia
Columbia                             CANDICE S. MILLER, Michigan
MICHAEL E. CAPUANO, Massachusetts    ROBERT E. LATTA, Ohio
GRACE F. NAPOLITANO, California      ANH ``JOSEPH'' CAO, Louisiana
MAZIE K. HIRONO, Hawaii              PETE OLSON, Texas
HARRY E. MITCHELL, Arizaon
JOHN J. HALL, New York
PARKER GRIFFITH, Alabama
BOB FILNER, California
ELLEN O. TAUSCHER, California
CORRINE BROWN, Florida
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)













                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

Proceedings of:

  June 3, 2009...................................................     1
  June 16, 2009..................................................    36



       AGENCY BUDGETS AND PRIORITIES FOR FISCAL YEAR 2010, PART 1
                              JUNE 3, 2009

                               TESTIMONY

Breen, Barry, Acting Assistant Administrator, Office of Solid 
  Waste and Emergency Response, U.S. Environmental Protection 
  Agency.........................................................     6
Dunnigan, John H., Assistant Administrator, National Ocean 
  Service, National Oceanic and Atmospheric Administration, U.S. 
  Department of Commerce.........................................     6
Johnson, Jr., Collister, Administrator, Saint Lawrence Seaway 
  Corporation, U.S. Department of Transportation.................     6
Shapiro, Michael, Acting Assistant Administrator, Office of 
  Water, U.S. Environmental Protection Agency....................     6
Thomas, III, John M., Vice President and Controller, Financial 
  Services, Tennessee Valley Authority...........................     6
White, David, Chief, Natural Resources Conservation Service, U.S. 
  Department of Agriculture......................................     6

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Carnahan, Hon. Russ, of Missouri.................................    69
Mitchell, Hon. Harry E., of Arizona..............................    71

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Breen, Barry.....................................................    72
Dunnigan, John H.................................................    79
Johnson, Jr., Collister..........................................    89
Shapiro, Michael.................................................   105
Thomas, III, John M..............................................   110
White, David.....................................................   116

                       SUBMISSION FOR THE RECORD

Breen, Barry, Acting Assistant Administrator, Office of Solid 
  Waste and Emergency Response, U.S. Environmental Protection 
  Agency, response to question from Rep. Brown of South Carolina.    19

       AGENCY BUDGETS AND PRIORITIES FOR FISCAL YEAR 2010, PART 2
                             JUNE 16, 2009

                               TESTIMONY

Antwerp, Lieutenant General Robert L. "Van" Van, Chief of 
  Engineers, U.S. Army Corps Of Engineers, Washington, D.C.......    43
Frumkin, Dr. Howard, Director, National Center for Environmental 
  Health, Agency for Toxic Substances and Disease Registry, 
  Centers for Disease Control and Prevention, Atlanta, Georgia...    43
Ruth, Commissioner C.W. "Bill", International Boundary and Water 
  Commission, U.S. Section, El Paso, Texas.......................    43
Salt, Terrance C., Acting Assistant Secretary of the Army for 
  Civil Works, U.S. Army Corps of Engineers, Washington, D.C.....    43

               PREPARED STATEMENTS BY MEMBERS OF CONGRESS

Carnahan, Hon. Russ, of Missouri.................................   123
Mitchell, Hon. Harry E., of Arizona..............................   125

                    PREPARED STATEMENTS BY WITNESSES

Antwerp, Lieutenant General Robert L. "Van" Van..................   126
Frumkin, Dr. Howard..............................................   131
Ruth, Commissioner C.W. "Bill"...................................   144
Salt, Terrance C.................................................   150

                       SUBMISSIONS FOR THE RECORD

Salt, Terrance C., Acting Assistant Secretary of the Army for 
  Civil Works, U.S. Army Corps of Engineers, Washington, 
  D.C.,responses to questions from the Subcommittee..............   159

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



 HEARING ON AGENCY BUDGETS AND PRIORITIES FOR FISCAL YEAR 2010, PART 1

                              ----------                              


                        Wednesday, June 3, 2009,

                   House of Representatives
   Subcommittee on Water Resources and Environment,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2167, Rayburn House Office Building, the Honorable Eddie 
Bernice Johnson [Chairwoman of the Subcommittee] presiding.
    Ms. Johnson of Texas. The meeting will come to order.
    Good morning. Today's hearing marks the first of two 
hearings on the fiscal year 2010 budget and the priorities of 
agencies under the jurisdiction of the Subcommittee. At today's 
hearing, the Subcommittee will receive testimony from the 
Environmental Protection Agency, the Natural Resources 
Conservation Service, the Saint Lawrence Seaway Development 
Corporation, the National Oceanic and Atmospheric 
Administration, and the Tennessee Valley Authority. On the 
afternoon of June 16th, the Subcommittee will hear testimony 
from the Corps of Engineers, the International Boundary and 
Water Commission, and the Agency for Toxic Substances and 
Disease Registry.
    With respect to the President's budget, let me start by 
saying that change has finally come. For most of the agencies 
here this morning, it is a welcome change. Only a year ago, I 
was conducting the budget request for the previous 
Administration, which was not adequate to meet the Nation's 
needs. Today's message is much more optimistic, at least with 
respect to investment in the Nation's growing wastewater 
infrastructure needs and the commitment to clean, safe, and 
secure water for all Americans.
    For the Environmental Protection Agency, the President's 
fiscal year 2010 request is $10.5 billion, the greatest level 
of funding requested for the agency since its inception and 
almost $3.5 billion more than the last request of the Bush 
Administration. Similarly, the Administration's request for the 
Clean Water State Revolving Fund is $2.4 billion, the greatest 
level of funding requested for this program since it was 
enacted in 1987 and one that renews the Federal commitment to 
meeting the Nation's growing wastewater infrastructure needs.
    The Administration needs to be commended for producing a 
budget that for the most part restores the prospect of a 
cleaner, more sustainable future. However, I would be remiss if 
I did not state that in certain areas this budget could still 
undergo some improvement.
    For example, in EPA's Superfund program, although the 
Administration requests an increase in funding for the program, 
the budget request has revised downward the number of sites 
that will be cleaned up in the current fiscal year from 35 
sites to 20. In addition, the estimated number of Superfund 
construction complete sites for fiscal year 2010 is only 22 
sites.
    While this is an ever so slight increase in the pace of 
cleanup, it is still a ways off of the pace that this agency 
has demonstrated in the past. I would gather that a leading 
factor for the slowdown in cleanup has been a lack of available 
funds for this program over the past few years and a slowdown 
in the Superfund pipeline of moving cleanup projects from the 
investigation phase to the design phase and to the 
implementation of effective cleanup plans.
    To that end, I am pleased that the Administration has 
renewed the call for reinstatement of taxes on petroleum, 
chemical feedstock, and corporate income that traditionally 
funded hazardous waste cleanups under the Superfund program. 
This effort, which was abandoned under the last Administration, 
should allow for an increase in the number and pace of cleanups 
and a return to the goal of ``polluter pays''.
    Another area of the budget that needs improvement is the 
request for the Natural Resources Conservation Service's 
Watershed Survey and Planning Program and its Watershed and 
Flood Prevention Operations Program. The fact that the 
President's budget eliminates funding for these programs fails 
to recognize the vital role of the Agency in protecting and 
restoring watersheds damaged by erosion, floodwater, and other 
natural occurrences. These programs have proven critical for 
improving the quality of waters located in the agricultural 
regions of the Nation.
    I am pleased that representatives of the Saint Lawrence 
Seaway Development Corporation, the National Oceanic and 
Atmospheric Administration, and the Tennessee Valley Authority 
could also join us this morning. Like EPA and NRCS, the budgets 
of these agencies have points of praise and points of 
criticism.
    I am heartened to see that the President's fiscal year 2010 
budget continues a commitment to the renewal of the physical 
assets of the Seaway as called for in the Water Resources 
Development Act of 2007. This vital corridor between the Great 
Lakes region and the Atlantic Ocean is critical to the regional 
economies surrounding the Seaway and the hastened recovery and 
sustainability of the Nation's economy.
    I am concerned about the decision by the President to 
eliminate funding for NOAA's Coastal Nonpoint Source Pollution 
Control Programs. I understand the recognition in today's 
testimony about how nonpoint source pollution control funding 
appears in the budgets of several Federal agencies, which I 
would surmise is an excuse by which funding for NOAA's Coastal 
Nonpoint Program was eliminated.
    However, since all the three agencies are here today, it is 
fair to state that combined efforts following the elimination 
of NOAA's Coastal Nonpoint Program, the flat funding of EPA's 
Nonpoint Source Program, and the slight increase in the NRCS's 
Environmental Quality Incentives Program will not adequately 
address the continuing impact of nonpoint source pollution on 
the Nation's waters. If we are serious about addressing 
nonpoint sources of pollution, we need to be honest about the 
investments that are actually being made to control what has 
become the single largest source of impairment to the Nation's 
steams, lakes, and estuaries.
    I welcome each of the witnesses here this morning. I now 
yield to the Ranking Member of the Subcommittee, Mr. Boozman, 
for his comments.
    Mr. Boozman. Thank you, Madam Chair.
    Let me begin by saying that I support the President's 
efforts to control Federal spending. However, the agency 
programs that we are examining today are truly investments in 
America. These are important programs that benefit our economy 
and improve the quality of life for our citizens. While I 
believe we must be diligent in our oversight of these agencies 
to be sure that programs are run effectively and efficiently, I 
do not support cutting programs or flat funding programs that 
have a proven record of providing economic benefits.
    It is inevitable that the Administration's priorities and 
Congressional priorities will not always coincide. But for the 
Environmental Protection Agency and the National Oceanic and 
Atmospheric Administration programs that fall within the 
jurisdiction of this Subcommittee, I would like to think that 
we have the same goals of protecting our environment in a cost 
effective way.
    The Administration's budget proposal for fiscal year 2010 
continues a long trend of under-investing in the Nation's water 
infrastructure. As a result, the general condition of our water 
infrastructure and water resources has declined.
    While I applaud the Administration for increasing their 
request for EPA's Clean Water State Revolving Loan Fund, the 
Superfund and Brownfields Programs are budgeted at a flat rate 
compared to previous funding levels. These are important 
programs that make contaminated areas fit for redevelopment. 
Many of the smaller and easier cleanup projects have already 
been done so the remaining work tends to be more complex and 
more expensive to complete.
    I do have a serious concern with the Administration's 
proposal to reinstate Superfund taxes to the Superfund 
Hazardous Waste Site Cleanup Program. These punitive Superfund 
taxes unfairly penalize those who are not responsible for the 
pollution at the Superfund sites. Under this proposal, 
Superfund taxes would be levied on many companies and 
industries such as financial, insurance, real estate, retail 
and wholesale trade, and service businesses that have 
absolutely no connection to a Superfund site or to any 
environmental cleanup.
    Superfund should remain a recovery statute, not a punitive 
one on those who fuel the Nation's economic engine. Cost 
recovery advances the polluter pays principle, not taxing 
innocent businesses. Shifting the burden to those who had no 
part in the site contamination is simply unfair and 
unwarranted.
    Another worthy program that has virtually been ignored by 
the Administration is the Small Watershed Program of the 
Natural Resources Conservation Service. This program provides 
small, cost efficient projects that protect our water and our 
land in rural America. Under the Administration's budget, the 
President proposes to terminate the Watershed and Flood 
Prevention Programs and essentially flat fund the Watershed 
Rehabilitation Program.
    The Saint Lawrence Seaway Development Corporation is a 
transportation agency that manages the U.S. portion of the 
Saint Lawrence Seaway. While the funding request for year 2010 
may address the immediate operation and maintenance needs, I am 
concerned about the long term viability of the Seaway if the 
Corporation does not have the funds to invest in a major 
rehabilitation of this vital link between the cities of the 
Great Lakes and the global marketplace.
    The Tennessee Valley Authority does not rely on 
appropriations since it is self-financing. TVA derives all of 
its funding from revenues from the eight million people in 
seven States that it supplies with electricity. I, like many 
others in Congress, are concerned about TVA's long term 
financial health. I am looking to the Board to provide some 
assurances that they can reduce the Authority's debt while 
continuing to strengthen the economy in the Tennessee Valley.
    I thank all of the witnesses for being here and I look 
forward to your testimony. I appreciate your service. I yield 
back, Madam Chair.
    Ms. Johnson of Texas. Thank you very much.
    Dr. Ehlers?
    Mr. Ehlers. Thank you, Madam Chair. I want to thank you for 
holding this hearing on the President's fiscal year 2010 
budget.
    I would like to briefly discuss a portion of the 
President's budget that I strongly support, the Great Lakes 
Restoration Initiative. The Great Lakes are indeed a national 
treasure. The Lakes hold 95 percent of U.S. surface fresh water 
and are the largest system of surface fresh water on this 
planet. In addition to offering recreation and transportation 
options, the Great Lakes also provide more than 30 million 
people with drinking water.
    Unfortunately, the health of the Great Lakes is threatened 
by aquatic invasive species, contaminated sediment, nonpoint 
source pollution, and habitat loss. Failure to protect and 
restore the Lakes now will result in more serious consequences 
in the future in addition to increasing cleanup costs.
    Since being elected to Congress, I have championed Great 
Lakes restoration efforts. I am encouraged that the President's 
budget and the budget resolution that Congress passed both 
include $475 million for the Great Lakes Restoration 
Initiative. Although this amount is still far short of what is 
needed to properly restore the Great Lakes, it is a very 
significant down payment. We now have to work with 
appropriators and the Senate to ensure that this Initiative is 
fully funded. We particularly need to ensure that Legacy Act is 
fully authorized at $150 million.
    I look forward to hearing more from our witnesses about how 
this Great Lakes Restoration Initiative will be implemented. 
Thank you, Madam Chair. I yield back.
    Ms. Johnson of Texas. Thank you very much. Now I will 
recognize Mr. Brown.
    Mr. Brown. Thank you, Madam Chair, for holding this hearing 
today to review the budget of EPA, NOAA, and other agencies 
under our jurisdiction. As this is the first budget for the new 
Administration, I look forward to hearing from the many 
agencies represented here with us today.
    As a representative of 75 percent of South Carolina's 
coast, I am especially focused on EPA's Beach Water Quality 
Program. This program supports State and local efforts to 
monitor water quality at our Nation's beaches, something that 
is critically important for districts like mine that depend 
upon beach tourism for a major portion of our economy. I am 
pleased to see EPA's continued support for this program, 
especially the Agency's effort to modernize funding. Later this 
week the Full Committee will be marking up legislation to 
reauthorize the Beach Act and I am hopeful it will come to the 
Floor soon.
    I am proud to serve as Ranking Member on the Ocean 
Subcommittee of the Natural Resource Committee, which has a 
significant interest in the activities of NOAA. The portion of 
NOAA under the jurisdiction of this Subcommittee plays an 
important role with all the other NOAA responsibilities. I look 
forward to learning about the Administration's priorities for 
NOAA in this regard.
    Again, thank you, Madam Chairman and Ranking Member 
Boozman, for holding this hearing. Thank you, gentlemen, for 
your testimony.
    Ms. Johnson of Texas. Thank you very much.
    Now I will introduce our witnesses. Mr. Michael Shapiro is 
Acting Assistant Administrator for the Office of Water at the 
U.S. Environmental Protection Agency in Washington, D.C. Mr. 
Barry Breen is the Acting Assistant Administrator for the 
Office of Solid Waste and Emergency Response at the U.S. 
Environmental Protection Agency in Washington, DC.
    Chief David White is with the Natural Resources 
Conservation Service at the U.S. Department of Agriculture in 
Washington, D.C. Administrator Collister Johnson, Jr. is from 
the Saint Lawrence Seaway Development Corporation of the U.S. 
Department of Transportation in Washington, DC.
    Assistant Administrator John H. Dunnigan is with the 
National Ocean Service of the National Oceanic and Atmospheric 
Administration, U.S. Department of Commerce, in Silver Spring, 
Maryland. Finally, Mr. John M. Thomas, III, is Vice President 
and Controller of Financial Services at the Tennessee Valley 
Authority in Knoxville, Tennessee.
    I will recognize you in the order in which I called your 
name. Mr. Shapiro, you may begin your testimony.

 TESTIMONY OF MICHAEL SHAPIRO, ACTING ASSISTANT ADMINISTRATOR, 
 OFFICE OF WATER, U.S. ENVIRONMENTAL PROTECTION AGENCY; BARRY 
 BREEN, ACTING ASSISTANT ADMINISTRATOR, OFFICE OF SOLID WASTE 
 AND EMERGENCY RESPONSE, U.S. ENVIRONMENTAL PROTECTION AGENCY; 
  DAVID WHITE, CHIEF, NATURAL RESOURCES CONSERVATION SERVICE, 
    U.S. DEPARTMENT OF AGRICULTURE; COLLISTER JOHNSON, JR., 
 ADMINISTRATOR, SAINT LAWRENCE SEAWAY DEVELOPMENT CORPORATION, 
U.S. DEPARTMENT OF TRANSPORTATION; JOHN H. DUNNIGAN, ASSISTANT 
  ADMINISTRATOR, NATIONAL OCEAN SERVICE, NATIONAL OCEANIC AND 
 ATMOSPHERIC ADMINISTRATION, U.S. DEPARTMENT OF COMMERCE; AND 
 JOHN M. THOMAS, III, VICE PRESIDENT AND CONTROLLER, FINANCIAL 
              SERVICES, TENNESSEE VALLEY AUTHORITY

    Mr. Shapiro. Good morning, Madam Chair and Members of the 
Subcommittee. Thank you for this opportunity to speak about the 
President's fiscal year 2010 budget request for EPA's National 
Water Programs.
    The request for our Clean Water and Drinking Water Programs 
is for $5.5 billion, which is about 53 percent of the Agency's 
budget. This also represents an increase of almost $3 billion 
over our fiscal year 2009 level. It will enable EPA in 
collaboration with our State, local, and tribal partners to 
advance our mission of protecting human health and the 
environment and specifically to make America's waters clean, 
safe, and secure.
    EPA has made progress in protecting and improving water 
quality. However, many challenges remain. The fiscal year 2010 
budget request will help EPA to address these challenges by 
supporting our core water programs and by providing increased 
funding for a number of key priorities. In the remainder of my 
brief summary remarks, I would like to highlight three of these 
key areas: sustainable infrastructure and two of our priority 
geographic areas, the Great Lakes and the Chesapeake Bay.
    In terms of infrastructure investment, our Clean Water 
State Revolving Fund and Drinking Water State Revolving Fund 
provide affordable loans to local communities to finance public 
wastewater systems and other water quality projects, as well as 
drinking water systems in the case of the Drinking Water Fund. 
The fiscal year 2010 budget request includes $2.4 billion for 
the Clean Water State Revolving Fund.
    This critical infrastructure program will preserve and 
create jobs and fund approximately 1,000 clean water projects. 
The funds will also prioritize green infrastructure, water and 
energy efficiency, and environmentally innovative projects for 
State, local, and tribal governments. The budget also includes 
significant increases for tribes and United States territories 
to address their significant unmet water quality needs.
    The budget also fully funds the cooperative agreements for 
the Water Security Initiative pilots, which will provide a 
proof of concept for enhancing the security of our water 
infrastructure. EPA will also work with State and local 
partners to develop a sustainability policy including 
management and pricing for future infrastructure funded through 
the State Revolving Funds to encourage conservation and to 
provide adequate long term funding for future capital needs.
    For the Great Lakes, we know that this valuable aquatic 
resource provides drinking water, food, recreation, and 
transportation to about 25 million Americans. The fiscal year 
2010 President's budget request provides $475 million for the 
Great Lakes Restoration Initiative, a coordinated multi-agency 
effort which focuses on critical challenges including toxic 
substances, invasive species, near shore health, nonpoint 
source pollution, habitat and wildlife protection, and 
restoration. EPA has worked closely with its Federal partners 
to target funding to the highest priority problems and 
opportunities in the Great Lakes and to ensure that there is 
increased collaboration, accountability, and transparency in 
our work.
    The Chesapeake Bay Program, which is authorized by Section 
117 of the Clean Water Act, is a collaborative regional 
partnership that has been working to restore the Bay since 
1983. The President's $35 million budget request will foster 
implementation of the Chesapeake Action Plan; advance efforts 
to reduce pollution from agriculture, development, wastewater, 
and air deposition; and support the EPA and States' work to 
develop the Nation's largest and most complex total maximum 
daily load for the entire Chesapeake Bay watershed. 
Additionally, the Chesapeake Bay Program will work closely with 
the rest of EPA and other Federal partners to implement the 
ambitious plans announced in the Chesapeake Bay Executive 
Order, which the President signed on May 12th.
    In conclusion, EPA's Office of Water takes the 
responsibility of protecting and improving the Nation's waters 
very seriously. America's water is a public trust. The National 
Water Program is committed to innovative solutions that protect 
and improve the Nation's water quality, promote water 
efficiency, and ensure environmentally sustainable water and 
wastewater infrastructure. EPA looks forward to continuing our 
work with this Subcommittee and to accomplishing these 
important National Water Program goals. I will be happy to 
respond to your questions.
    Ms. Johnson of Texas. Thank you very much. Mr. Breen?
    Mr. Breen. Thank you, Madam Chairman. I am pleased to be 
here today to discuss the President's 2010 budget request. In 
particular, I will discuss Superfund, Brownfields, and other 
programs under the responsibility of the Office of Solid Waste 
and Emergency Response. With your permission, I will summarize 
it and offer the full testimony for the record.
    The President's request of $10.5 billion for 2010 to carry 
out EPA's mission represents a 37 percent increase over our 
2009 budget and the highest level ever for the Agency, as you 
observed.
    I am pleased to say that Brownfields cleanup and 
redevelopment is one of the Administration's environmental 
priorities. The 2010 budget request provides $174.7 million for 
the Brownfields Program, a $5 million increase from our 2009 
enacted level. That includes $87 million for Brownfields 
program assessment, cleanup, revolving loan fund, and job 
training grants.
    Turning to Superfund, we continue to protect human health 
and the environment by cleaning up uncontrolled hazardous waste 
sites and conducting actions to mitigate immediate threats to 
human health. The President's budget provides $1.3 billion for 
the Superfund program and it maintains Superfund's remedial 
cleanup program at essentially the same level as the 2009 
enacted level. In 2008, we obligated $462 million of 
appropriated, State cost share, and potentially responsible 
party settlement resources to conduct cleanup construction and 
post construction work at Superfund sites. That included more 
than $55 million to begin construction at 16 new Superfund 
projects at 15 National Priorities List sites.
    Turning to homeland security, the 2010 budget requests 
$53.5 million. With that money, we will continue to concentrate 
on key areas including laboratory capability and 
decontamination capability. It will help strengthen our 
responder base through training and exercise opportunities for 
our response support corps and incident management team 
volunteers as well as the base full time response workforce.
    Turning to the oil program, our budget request provides 
$18.4 million. The oil spill program focuses on preventing oil 
spills from occurring, reducing the hazard of exposure to 
people, and responding to spills when necessary. Together with 
the Coast Guard, we evaluate thousands of spills annually to 
determine if assistance is required. On average, we either 
manage the spill response or oversee the response efforts of 
private parties at about 250 to 300 oil spill sites per year.
    Subject to your questions, that concludes my testimony. 
Thank you very much.
    Ms. Johnson of Texas. Thank you very much. Chief David 
White?
    Mr. White. Greetings, Madam Chairwoman. It is an honor to 
be here, Ranking Member and distinguished Members of the 
Subcommittee. This is a heck of a hearing room. It is quite 
impressive. I'm going to visit with you today about three 
programs and give you a little overview of what we have done 
with some Recovery Act money.
    The first one is Watershed and Flood Prevention. That is 
essentially two statutes, one from 1944 and one from 1954. We 
have done about 2,000 watershed projects, the small ones that 
were mentioned earlier, across the Country and about 11,000 
structures. If you look at the total amount of money since 
1947--and I didn't normalize this number, this is just added 
up--about $6 billion has been spent. For this investment, we 
get about $1.5 billion a year in benefits, in flood control and 
various other things.
    You are right, Madam Chairwoman. You mentioned it; the 
Ranking Member mentioned it. This is not proposed for funding 
in the 2010. For the last several years, this program has been 
almost completely or completely earmarked. The Agency has very 
little or no flexibility in this. I guess I would just simply 
echo the Ranking Member's words that sometimes priorities 
collide. This is one of those instances.
    We do expect these projects to continue, many of them, 
because they do enjoy local support. I am sorry for the little 
handmade photos, but if you look at pages 16 and 17 on this, 
you are going to see some ring dikes. These were taken in the 
floodplain of the Red River Valley of the flooding this year. 
These are projects we can actually do with other programs to 
protect these farmsteads. These are pure water quality projects 
because if that water gets in there, you have got chemicals, 
pesticides, fuel, and the wellhead for the producer. We can do 
those types of projects with other programs.
    The second program is the Emergency Watershed Protection 
Program. This is cleanup; removing debris; stabilizing banks 
from tornadoes, hurricanes, ice storms, volcanoes, you name it. 
In 2008 you were very generous with us. In the two 
supplementals, we received $490 million in EWP funding. We have 
about $67 million left in that account. That number changes all 
the time as money is returned and more requests go out.
    So the President's budget really doesn't propose to pre-
fund this. We have $67 million left. My judgement, barring some 
awful calamity, is that that should be adequate. If something 
terrible does happen, this Body has always responded for 
America regardless of where it occurs. And that would certainly 
be an option to fund it in the future.
    The third program is Watershed Rehabilitation. This is a 
little concerning for me. These 11,000 structures, many of them 
were built 50 years ago with a design life of 50 years. Every 
day for the next 20 years, a watershed structure will reach the 
end of its useful life, every day for the next two decades. And 
we have got to fix these things. Things wear out. Metal rusts; 
concrete degrades.
    We have had another problem with these, that what you have 
built in a cotton field in Georgia is now a subdivision outside 
Atlanta. And any time you have people build below one of these 
structures, it automatically becomes a high hazard structure. 
We have got to go in there and upgrade these things. That is 
done under this program as well. The President's budget does 
propose a small increase for that of $40.2 million. I would 
mention that the 2008 Farm Bill put $135 million in mandatory 
funds so we are hopeful of that.
    The last item, in the Recovery Act we had $340 million. 
This was at the Agency's discretion on how this was allocated. 
$145 went to Watershed Operations. We were able to fund 81 
projects in 26 States, and even one in the Northern Marianas, 
which I think will be great for the coral reef outside that 
island. With Watershed Rehabilitation we had $50 million. We 
funded 27 projects in 11 States.
    Then the last one was the Emergency Watershed Protection 
Program, which allows us to actually purchase floodplain 
easements. That is what the money was designated for. We did a 
nationwide sign-up and we were stunned with the response. We 
had $145 million to distribute but we had more than $1.4 
billion in applications, 4,200 applications. Of that we were 
able to fund 289 recipients for the money we had available.
    In that program, there are four Members of the Subcommittee 
who have projects. I think only one of them is here, Mr. 
Griffith. Three floodplain easement projects were funded in his 
district. There are a couple of photos in here that kind of 
show them. There is one graphic one from Ohio that shows five 
or six houses right below a dam that will be relocated.
    I have expired or nearly expired my time. I appreciate your 
time.
    Ms. Johnson of Texas. Thank you very much.
    Administrator Collister Johnson, Jr.?
    Mr. Collister Johnson. Good morning, Madam Chair and 
Members of the Committee. Thank you for having us here today to 
talk about the 2010 budget requests. With your permission, I 
will submit my written statement for inclusion in the record 
and simply talk to some of the points in that written 
statement.
    I am very pleased, Madam Chair, that you alluded to the 
economic importance of the Seaway to the economy of the 
Midwest. It serves a vital role. It impacts 150,000 jobs and 
$4.3 billion worth of salary every year. It saves shippers 
about $3.6 billion a year, costs that would otherwise be passed 
onto consumers. So given an area of the Country that we all 
recognize economically is going through great challenges, we 
think it is more important than ever that the Seaway do its job 
properly.
    In order to do that job properly, we need to renew the 
assets that make up the Seaway. The Seaway was built 50 years 
ago. There really hasn't been an asset renewal program that 
will assure that it does its job and stays open, and there will 
not be a catastrophic failure. So we were very pleased last 
year when the Bush Administration included for the first time 
an 83 percent increase in our budget for asset renewal.
    We were very pleased that the President has decided to 
continue that program in this budget. We believe that if we can 
continue that over the next 10 years--there are 65 projects 
that we want to fund--that we will have a Seaway that will be 
able to serve the Country for the next 50 years as it has in 
the past.
    This year also we are very hopeful that we will have some 
reforms passed that will allow maritime to be used more as a 
means of relieving congestion from road and rail. Harbor 
maintenance tax reform is essential for that. That serves as a 
real barrier to utilization of maritime. Congressman McHugh 
sponsored a bill, H.R. 528, that would reform harbor 
maintenance tax. There are many co-sponsors. Of course, 
Congressman McHugh has now moved on to become Secretary of the 
Army so we will have to reintroduce that, but we are confident 
that we will get the support necessary to do that.
    Then I would also like to allude a little bit to the role 
that we play in terms of environmental protection for the Great 
Lakes that Congressman Ehlers talked about. It is the only 
waterway in the United States where every ship coming in has to 
go through a checkpoint, which is where we do inspections in 
Montreal.
    For the first time in the history of the Seaway, we now 
have a set of regulations that requires salt water flushing for 
all of the ballast tanks that come into the Seaway. Science 
tells us that saltwater flushing is very, very effective in 
terms of killing the freshwater organisms that otherwise could 
live in the Great Lakes. Also this last year we had 100 percent 
inspection of every ship so there is no more uninspected, 
untreated ballast water coming into the Great Lakes. We think 
this is going to have a very positive impact in terms of 
decreasing the rate of introduction of invasive species.
    Finally, I would be remiss if I didn't point out that this 
year is the 50th anniversary of the Seaway. It was opened in 
1959. We are going to have a celebration of that in upstate New 
York in the middle of July. Obviously anyone who has an 
interest in joining us for that celebration, we would be more 
than happy to have them. Thank you, Madam Chair.
    Ms. Johnson of Texas. Thank you very much.
    Mr. Dunnigan?
    Mr. Dunnigan. Thank you, Madam Chair. Good morning. It is a 
pleasure to be here on behalf of the 12,000 women and men of 
NOAA who provide science, service, and stewardship to the 
Country every day. I am Jack Dunnigan. I am NOAA's Assistant 
Administrator for Oceans and Coasts and the Director of the 
National Ocean Service. At NOAA we work to protect the lives 
and livelihoods of Americans and to provide products and 
services to the benefit of our economy, our environment, and 
the public safety of the Nation.
    What I would like to do this morning is to highlight some 
of the programs that help fulfill our responsibilities for 
understanding, protecting, and restoring coastal and marine 
resources. I would like to ask that my full written statement 
be included in the record, Madam Chair. And if it is okay, I 
will just summarize some of the high points. I would like to 
begin by talking about some of the recent things that we have 
done in 2008 that we think are of interest.
    NOAA in many ways is about weather and hurricanes, and we 
had two major hurricane events to respond to in the Gulf of 
Mexico in 2008, Hurricanes Gustav and Ike. NOAA responds 
immediately as soon as a storm has passed by providing aerial 
images to aid emergency responders, by surveying waterways so 
that we can open those from obstructions, and by providing real 
time storm data for nautical charting and recovery.
    We also respond to oil spills. In 2008 we got to deal with 
both the Cosco Busan oil spill in San Francisco Bay as well as 
the New Orleans barge collision of DM932 on the Mississippi 
River. In those cases we did our hard work to provide 
trajectory predictions, to prioritize cleanup and restoration 
activities, to do injury assessments, and to initiate 
restoration planning.
    We do a lot of work in the area of marine debris. In 2008 
we developed and implemented partnerships to turn derelict 
fishing gear into energy on the East Coast, building on a 
program that we had started in Hawaii. We estimate that every 
one ton of fishing nets that are processed can generate enough 
electricity to power a home for almost a month. So there is a 
real opportunity here.
    We reported last year on a couple of major, intense harmful 
algal bloom events on the eastern Florida coast off the Florida 
panhandle and in the coastal regions of Alabama and 
Mississippi. We worked last year to help reduce the impacts of 
invasive species by improving the understanding of ballast 
water management practices on ships and by integrating our 
National Benthic Inventory website with the U.S. Geological 
Survey's Nonindigenous Aquatic Species Database.
    We continue to work with our transportation support 
information systems, especially our PORTS program that provides 
real time information to vessel operators moving in and out of 
the ports of this Country so that they can know with a lot of 
accuracy exactly how much water they have underneath the keel 
and how much clearance they have underneath that bridge that is 
right up ahead.
    Looking towards the 2010 budget request, there are some 
very interesting things in there that I think the Committee 
will want to look at:
    We have an increase requested of $1.4 million for our oil 
spill program so that we can do some further modeling to 
develop a three dimensional oil spill model that can be used 
both by the responding agencies and for recovery.
    We are seeking an additional amount of $2.7 million in our 
harmful algal bloom forecasts so that we can create a national 
system. Right now, most of our efforts are focused in the 
eastern Gulf of Mexico. We would also like to work towards 
developing a national HAB event response capability.
    Our invasive species program is not seeking an increase in 
the President's budget this year but we will continue to work 
hard in this area. There is about $2.7 million in there. We 
intend this year to be preventing and controlling ballast 
water, and modeling the effects of invasive species food webs 
in the Great Lakes. And yes, at NOAA we do recognize that the 
Great Lakes are oceans, too. We would also like to proactively 
assess and manage threats that are brought on by invasive 
species.
    We need an additional $1.2 million in the President's 
budget to focus on increasing our hydrographic surveys. We have 
high priority hydrographic survey needs around the Country. We 
work hard, both with our own assets and with the private 
sector, to fill out and get the information that mariners need 
so that they can operate safely in our waters.
    In conclusion, Madam Chair, NOAA has made great progress, 
we think, to address our mandates and fulfill our missions over 
the last year. These efforts will continue in 2009. We ask the 
Committee to support the President's 2010 budget request for 
NOAA's programs where we provide products and services that 
benefit the economy, the environment, and the public safety of 
our Nation. Thank you very much, Madam Chair.
    Ms. Johnson of Texas. Thank you very much.
    Mr. John Thomas?
    Mr. Thomas. Thank you, Madam Chairwoman Johnson, Ranking 
Member Boozman, and Members of the Committee. It is an honor to 
come before you to discuss the budget of the Tennessee Valley 
Authority. On behalf of TVA, we appreciate the oversight and 
support provided by this Committee.
    As a corporate Federal agency, TVA is financially self 
supporting through its operations as the Nation's largest 
public power provider. In accordance with the direction of 
Congress, TVA pays its own way by using proceeds from power 
sales to pay wages, maintain assets, service debt, and fund 
stewardship and economic development activities.
    TVA's mission is carried out in three areas: energy, 
environment, and economic development. TVA provides electricity 
for about nine million people through wholesale contracts with 
158 local utilities. TVA also sell power directly to about 60 
large industries and Federal installations. Our stewardship 
responsibilities include the integrated management of the 
Tennessee River for flood control, commercial navigation, water 
quality, and recreation.
    We are in the process of finalizing our budget for fiscal 
year 2010. The proposed budget at this time assumes revenue of 
$13.6 billion from the sale of electricity, operating expenses 
of $11.3 billion, and capital expenditures of $2.2 billion. The 
$2.2 billion in capital expenditures includes $223 million for 
clean air projects and about $1.4 billion for new generating 
projects including the construction of a second reactor at 
Watts Bar Nuclear Plant in Spring City, Tennessee. TVA's 
outstanding debt and debt-like obligations are estimated to be 
$24.9 billion at the end of 2010, an increase of $32 million 
from the previous year.
    As you know, a large coal ash storage facility failed last 
December 22nd at the Kingston Fossil Plant, about 40 miles west 
of Knoxville. We are making steady progress in the cleanup and 
recovery. We continue to coordinate closely with the U.S. 
Environmental Protection Agency, the Tennessee Department of 
Environment and Conservation, and other State and local 
officials. All work plans and schedules are being submitted to 
EPA for independent review and approval.
    Ongoing environmental sampling shows that air quality and 
drinking water continue to meet State and Federal standards. An 
independent engineering firm was retained to determine the root 
cause and we expect the results later this summer. To address 
any concerns about public health, TVA is contracting with Oak 
Ridge Associated Universities to provide the community with 
access to medical and toxicology experts who have knowledge and 
experience with the ash materials. All work is proceeding as 
quickly and safely as possible to fulfill TVA's commitment to 
fully recover the area and do the right thing for the 
community. We estimate the recovery will cost between $675 
million and $975 million, excluding regulatory and litigation 
costs.
    In addition to the Kingston recovery, TVA is working to 
meet some significant financial and operational challenges. 
Like many other areas in our Nation, the Valley is experiencing 
a downturn in industrial activity, which is impacting power 
sales. The budget plan adopted last fall assumed that power 
sales would be flat this year due to the onset of the 
recession. Now we expect sales to be down from 6 to 8 percent, 
or about $500 million in revenue.
    On the plus side, we are seeing relief through declining 
prices for fuel oil and natural gas. As a result, virtually all 
of the 17 percent rate increase enacted last October through 
TVA's fuel cost adjustment has been rescinded. We are also 
seeing relief from record drought conditions which have 
impacted the area for the past three years. We expect TVA's 
reservoirs to reach their normal summer levels for the first 
time since 2005.
    Looking ahead, TVA is working to obtain over 50 percent of 
its generation from clean and renewable energy resources by 
2020. Currently, we are evaluating proposals for up to 2,000 
megawatts of renewable energy and we are increasing our energy 
efficiency program with the goal of avoiding 1,400 megawatts in 
peak demand growth by 2012.
    The Tennessee Valley remains a great place to work and 
live. Earlier this year two major manufacturers of solar energy 
materials announced plans to build $1 billion plants in 
Tennessee. The plants together will create about 1,500 jobs.
    In conclusion, we look forward to keeping this Committee, 
Congress, the Administration, and the people of the Tennessee 
Valley informed of our progress. Thank you, Madam Chairwoman. I 
would be pleased to answer any questions that you have.
    Ms. Johnson of Texas. Thank you very much.
    We are going to begin our first round of questions with Dr. 
Ehlers.
    Mr. Ehlers. Thank you, Madam Chair. I will concentrate my 
questions on the Great Lakes Restoration Initiative and other 
Great Lakes activities. I apologize to the others who don't get 
asked questions, but you can just relax for a few minutes.
    I am curious how the Great Lakes Restoration Initiative 
will be administered. Mr. Shapiro, can you clarify that for me, 
please?
    Mr. Shapiro. Yes, Congressman Ehlers. Resources that have 
been proposed by the President will be administered through the 
Environmental Protection Agency. But as part of our proposal to 
Congress, the EPA is requesting authority to transfer that 
money to other agencies who can play important and essential 
roles in helping to restore the Lakes. There is an existing 
framework, the Federal Interagency Taskforce, which is chaired 
by EPA.
    There is also a corresponding regional working group which 
has representation from all of the Federal agencies that have 
been part of the multi-year collaborative effort to develop 
good science and to plan activities in collaboration with 
State, local, and tribal governments and non-governmental 
groups aimed towards restoring the Lakes.
    The governance process, if you will, for the Federal 
funding really involves agencies collectively identifying the 
priority projects, both governmental and non-governmental, to 
address the concerns in the five areas that I mentioned in my 
opening remarks and then allocating the resources across the 
agencies. So it will be led by EPA but with an extensive effort 
to collaborate and work collectively with initially our Federal 
partners, but more importantly over time, the State, local, and 
tribal governments that have a major stake in the restoration 
of the Great Lakes.
    Mr. Ehlers. Let me also just comment that I am very pleased 
that this is a bipartisan issue. As you know, President Bush 
issued the call for the Great Lakes Regional Collaborative a 
couple years ago and President Obama is now following up with 
that. Even going back further, when the Democrats controlled 
the House of Representatives a few years ago, Congressman Rahm 
Emanuel sponsored a bill on the Great Lakes and I cosponsored 
it. The following year the Republicans were in charge and I 
sponsored a bill, slightly different, and Congressman Emanuel 
was pleased to cosponsor that. So we have had a good working 
relationship on this issue.
    A comment for Mr. Breen, he commented several times about 
Superfund and activities there. On the Great Lakes Legacy Act, 
which has been in existence now for some six years or so, one 
refrain I have heard repeatedly from the OOSA [phonetic] 
community and the environmental community is that it was by far 
the most effective cleanup program ever developed by the 
Congress. That raises the question, if the Legacy Act has 
proved to be so efficient and cost effective, should we perhaps 
look at the Superfund and ask why can't we run it the same way 
we ran the Legacy Act? Before I write legislation to do that, I 
would like your comments.
    Mr. Breen. Thank you, Congressman. Of course, the two have 
somewhat different purposes. An important purpose of the 
Superfund is to address uncontrolled hazardous waste sites. So 
we have our own scope that we need to pursue with sometimes 
different kinds of remedies. So it is not always a surface 
water and sediment remedy that you would find in a Great Lakes 
environment. Frequently it is a soil remedy, a groundwater 
remedy, and occasionally a sediment remedy. We do have some 
sediment sites. But I bet most of the sites are soil and 
groundwater sites. So there is a considerable difference in the 
kind of approach that is needed.
    Mr. Ehlers. That is very true. But I think one of the big 
differences is that when we wrote the Legacy Act, we tried very 
deliberately to reduce the amount of time that lawyers could 
spend on each of the cases and put most of the money into 
direct action. Also, I think a big factor was the cost sharing 
between the Federal, State, and local governments which 
provided a great inducement for many of the actors to 
participate fully without dragging their feet. So you might 
just take a look at that. I am not saying there is a one to one 
correlation. But I think it is worth looking at that.
    I see my red light is on. It is amazing how the clock runs 
so much faster on my time than on other people's times.
    [Laughter.]
    Mr. Ehlers. But I will yield back.
    Ms. Johnson of Texas. Thank you very much. Mr. Baird is 
recognized.
    Mr. Baird. Thank you, Madam Chair. Mr. Dunnigan, I want to 
focus on your work. I am a big fan of NOAA. I appreciate all of 
the panelists here.
    You, I think, absolutely appropriately identified some of 
the major concerns like harmful algal blooms and hypoxia. We 
have got these problems off our coast in the Northwest. It is a 
growing worldwide problem, especially the hypoxia and algal 
blooms.
    There are two things that I don't think got a lot of 
attention in your testimony, and I wonder if you care to expand 
on them? One is ocean acidification. As you probably know, I 
think just two days ago, the National Academies of Science from 
I think over 60 nations focused on ocean acidification as a 
profound problem associated with CO2 in the atmosphere. Also, I 
don't think there was a lot of discussion of overfishing both 
within our regional waters and worldwide. Can you talk about 
both of those issues a bit and how the budget reflects those 
issues?
    Mr. Dunnigan. Yes, sir. Thank you and thank you for the 
kind words about NOAA.
    For ocean acidification, I think there has been a major 
emphasis within NOAA over the last couple of years in looking 
at what we call long term climate change and what one Member I 
know likes to call lethal overwarming and ocean acidification. 
NOAA is basically a science agency. So that is what we have 
been trying to understand better, the long term transport 
mechanisms. We know and we have known for decades that the 
oceans are a carbon sink. As we increase the amount of carbon 
that is in the atmosphere, how much of it ends up being taken 
up by the ocean and what are the long term concerns?
    One of our concerns is the impact that that has on coral 
reefs because coral reefs around the world are endangered. Two 
weeks ago there was a major international commitment to the 
Coral Reef Triangle Initiative in Indonesia. The United States, 
although we are not one of the six countries, we have 
substantial presence in the central and western Pacific so we 
have a very strong interest in supporting those efforts.
    So we do recognize the problems and the scientific issues 
that are associated with the need to address ocean 
acidification. That is a major part of our research programs as 
we continue to develop climate models. The Administration has 
said that they are in favor of developing a National Climate 
Service so that we can improve our ability to respond.
    On overfishing, we recognize that there is a major problem 
with the need to address overfishing. Our new Undersecretary 
has engaged in this from the first day that she was on the 
program. The budget contains about another $50 million of new 
money that would be used to develop management programs that 
would help to address overfishing around the Country, including 
some additional funding for the Regional Fishery Management 
Councils that help make the plans and the regulations. So we 
are committed to following through on those responsibilities. 
There are pieces in this budget that actively support that.
    Mr. Baird. Great. I appreciate your attention to both of 
those issues. I have two just quick suggestions, if I may, for 
consideration. You may have heard me mention these before.
    One, I hope we will consider the possible use of UAVs, 
unmanned aerial vehicles, to patrol our marine conservation 
areas. These vehicles can fly for 20 plus hours. They don't 
require landing strips. They don't require pilots except on the 
ground. I think in a number of areas--especially with some 
international law--a UAV could target a fishing vessel in 
restricted waters; take a photo of it; and then have something 
like the Civil Asset Forfeiture, which we do with drug dealers, 
to confiscate the boat; and then buy more UAVs.
    I think this would be particularly useful in areas like our 
own marine conservation areas, which President Bush expanded 
last year. If you look at the Galapagos, if you look at south 
Florida, we have got major reserves off our coast in the 
Northwest that really we don't have enough patrol. I think that 
is a viable way, an economical way, and a safer way than having 
pilots out over these distant waters. I hope we can look at 
that.
    The other thing is, as you know, I am a huge fan of 
Aquarius. It is a unique resource. I would encourage NOAA and 
our scientific agencies to consider sponsoring and supporting a 
worldwide establishment of Aquariuses for some of the other 
major ecosystems on earth. We have got one off Key Largo but I 
think there are many other areas with different ecosystems 
where we need that kind of sustained, long term tracking. So I 
hope NOAA will fully fund and add some money, not only to the 
Aquarius that is currently operational, but to actually begin 
an exploration of whether a few other Aquarius-type research 
stations could be made available elsewhere in our Country and 
the world.
    With that, I yield back. I thank the Chair and thank our 
witnesses.
    Ms. Johnson of Texas. Thank you very much. The Chair now 
recognizes Mr. Brown.
    Mr. Brown. Thank you, Madam Chair.
    Mr. Shapiro, at previous hearings witnesses have told us 
one of the reasons that we have a big infrastructure problem is 
that communities have not maintained the infrastructure and do 
not have a plan for replacement. If this is true, does EPA 
think it is reasonable to ask as a condition of getting 
financial assistance that we do not repeat this problem? What 
is EPA doing to ensure that communities are effectively 
managing their assets?
    Mr. Shapiro. Thank you. You have identified a very 
important issue, one that EPA has been working hard to address 
through our sustainable infrastructure efforts. We have 
partnered with just about all the major organizations 
representing professionals in the water and wastewater 
communities to develop essentially a set of principles and 
actions that would characterize what we would consider to be 
well-managed utilities. Many of those address the issue of 
asset management: maintaining and inventorying your assets; 
making sure that you have got an appropriate process to 
identify when repair, rehabilitation, or replacement is 
necessary; as well as developing a sound financial program.
    I think the question of whether a plan like that should be 
required in order to be able to get funding is one that we have 
not taken a position on. But certainly we have encouraged 
utilities at all levels to take those practices into account, 
to adopt asset management and environmental management systems 
as well as sound pricing strategies in order to maintain the 
future viability of the infrastructure.
    We recognize that this has been a problem historically 
within the industry. We are seeing much greater acceptance now 
of these kinds of planning approaches and a much more 
professional approach to maintaining assets as a result of the 
work we have done as well as many of our partners, as I said, 
including all of the major professional organizations dealing 
in this area.
    Mr. Brown. Do we have any way of inventorying the projected 
backlogs of deficiencies in our infrastructure?
    Mr. Shapiro. Well, we have our needs surveys, which are 
conducted separately for wastewater and drinking water 
facilities. Each of those surveys is conducted on a four year 
cycle. So we know, for example, that the identified needs for 
wastewater as of the last survey, which was conducted in 2004, 
were about $202 billion worth of projected investment needs.
    Now, for some of those the funding may have already been 
identified for it. So we didn't try in these surveys to 
identify what the unfunded portion of that might be. That is a 
total list of needs. On the drinking water side, it is over 
$330 billion. So we have a pretty good handle on roughly a 20 
year time horizon in each of those areas as to what the needs 
are, as can be best either identified or forecast by the 
utilities themselves through these surveys.
    Mr. Brown. Thank you very much. That is what I was 
concerned about, that there is a tremendous amount of need out 
there that we are trying to meet. If we don't meet it, I think 
we are going to certainly, under a disaster portion of time, 
have to deal with it.
    Mr. Breen, if I could ask you the next question. On the 
Superfund program, EPA proposed increasing spending for the 
Superfund program but the Agency says it will complete 
construction on fewer Superfund sites next year as compared to 
the previous years. Why would that be?
    Mr. Breen. Let me see if I can help by offering context, 
then an explanation, and then a little more context. The first 
context is that our construction completion projections have 
been lowered for 2009. The construction completion projection 
for 2009, we have lowered from 35 down to 20. We discovered 
this after we had submitted the 2009 budget. So we went ahead 
and, as part of the 2010 budget, wanted to make sure the 
Congressional Offices knew that we were projecting lower for 
2009. For 2010, we are projecting 22 construction completions. 
So it is 20 for 2009 and 22 for 2010.
    This is not the first time we have found ourselves in this 
situation. In the 2007 budget, we lowered the projection from 
40 to 24 for much the same reasons. After the budget had been 
submitted, we discovered that we didn't think we were going to 
make the number we had originally projected. We didn't want to 
mislead anybody along the way by leaving a more optimistic 
number out there while the budget was being executed. So the 
lowering is not that we have actually done less at the moment. 
It is that we think we will end up doing less and we wanted to 
make sure everybody knew that.
    If I have overshot my time, I better be careful about going 
any further.
    Mr. Brown. I thank you. My time has expired. But if you 
could just tell me very quickly, what percent do you think we 
have addressed now in our Superfund locations?
    Mr. Breen. We do have that number. Let me get it for you 
for the record in terms of the overall National Priorities List 
and the number that we have reached construction completion at. 
We have that number and I can get that to you.[Information 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Brown. Okay. Thank you very much. Thank you, Madam 
Chair.
    Ms. Johnson of Texas. Thank you. The Chair recognizes Mrs. 
Napolitano.
    Mrs. Napolitano. Thank you, Madam Chair.
    I have several questions for Mr. Shapiro. Southern 
California for many years has been tapping into groundwater and 
alternative water sources. What role is EPA playing in 
supporting recycling, tertiary treatment--and now there is a 
fourth treatment, ultraviolet irradiation and others, to be 
able to clean it even better--desalination, and other 
alternative approaches to produce more usable water being that 
we do have climate change and that we do have drought and that 
we are trying to conserve and restore more?
    Mr. Shapiro. Thank you for that question. EPA has played 
and can play a number of roles in dealing with issues of water 
reclamation and reuse as well as conservation.
    We don't regulate water quantity directly. We can't require 
reuse, but we do have authorities that come to play. Certain of 
the kinds of activities that you referred to can access the 
Drinking Water Revolving Fund as a source of financing. We 
also, to the extent that reclaimed water is used to recharge 
aquifers, would regulate that activity under the Underground 
Injection Control Program.
    We are very deeply interested in the issue of water 
conservation, of using less to begin with. We again don't have 
regulatory authority in that area but we think as part of a 
conscientious approach to managing infrastructure 
appropriately, water conservation should play a key role. So we 
have a voluntary partnership program, WaterSense, which 
encourages consumers to purchase water efficient products. It 
also partners with manufacturers to set specifications for 
products that meet high goals for water efficiency.
    So in addition to being able to address the issues of 
reclamation and reuse, we think starting with conservation is a 
critically important first step.
    Mrs. Napolitano. You do mention the WaterSense program. 
What was the Administration's request for the WaterSense 
program?
    Mr. Shapiro. The base budget for that is around $2 million 
per year.
    Mrs. Napolitano. Is that sufficient?
    Mr. Shapiro. Well, it certainly is sufficient to maintain 
the program at the level that we have right now. Obviously, we 
have ideas for new product categories and more ambitious goals. 
As resources become available, we will undertake additional 
activities. But it certainly meets our needs at the moment in 
terms of the level of the program.
    Mrs. Napolitano. Does that include any education to the 
public?
    Mr. Shapiro. Yes. An important component of WaterSense is 
getting the message out to the public, both generally in terms 
of the importance of water conservation as well as making 
consumers aware that you can achieve water efficiency by making 
the right product choices. One of the things we do with our 
many partners is encourage them to use our communication 
materials as well as our logos were appropriate in order to 
make the public aware of the opportunities that are available.
    Mrs. Napolitano. I am sorry. My time is running out and I 
have another question, Mr. Shapiro. It has to do with chlorine. 
It is a big issue because of the transportation and the safety 
hazard, especially transporting it on rail and truck. Do you 
feel the chemical industry can do more to produce a safer 
product?
    Mr. Shapiro. Well, at this point the Water Office has done 
a lot of work on the issue of disinfection. There are 
alternatives that are currently available to communities. They 
don't all work equally well in different situations. So we have 
encouraged utilities to look closely at the choices they face 
and, where appropriate, to minimize the use of pure chlorine 
gas. There are other chlorine-related products that can also be 
used.
    But at the end of the day, we feel it is important for 
water utilities to have the ability to weigh the options and 
make the choices that are protective for their communities and 
to accomplish their goal. At this point in time, it appears 
that there still is a need for the use of conventional chlorine 
treatment.
    Mrs. Napolitano. Is there any information that is given on 
a regular basis to the water agencies so they are aware of some 
of the new technologies that might be available to them?
    Mr. Shapiro. We certainly share with them the information 
that we have concerning alternatives and the factors to 
consider in their use. We also share approaches to kind of 
optimizing their disinfection activities to minimize the need 
to use quantities of material. So we try to share information 
on a technical level as well as provide direct assistance in 
some cases.
    Mrs. Napolitano. Thank you, Madam Chair. I do have some 
other questions I will submit in writing. It has to do with 
quagga mussels.
    Ms. Johnson of Texas. Thank you very much. The Chair now 
recognizes Mrs. Candice Miller.
    Mrs. Miller. Thank you very much, Madam Chair. I appreciate 
the witnesses.
    I certainly associate myself with some of the comments from 
my colleague from Michigan, Mr. Ehlers. He is on the west side 
of Michigan and I am on the southeast side of Michigan but we 
share a principle of advocacy for the protection of our 
magnificent Great Lakes. They contain 20 percent of the fresh 
water drinking supply of the entire world. Of course a big 
issue there in addition to water quality has been invasive 
species.
    So Administrator Johnson, first of all congratulations on 
the 50th anniversary of the Saint Lawrence Seaway. That is a 
wonderful thing. It is amazing that has happened since all 
these years, or most of those years, at least two thirds of 
them, we have all been dealing with the experiences that we 
have had and the negative impact of invasive species. So when 
you said that there is--now, I wrote this down--100 percent 
inspection, no more uninspected ballast water coming into the 
Great Lakes, I thought I was going to get up here and do a 
little jig. That is a fantastic statement to hear.
    If you could, perhaps just flesh that out for me. What is 
your experience with that? Now, I know you have several hundred 
salties that come into the Great Lakes. As they enter in 
through the Saint Lawrence Seaway, if you are doing that kind 
of inspection, could you sort of help me understand the 
mechanics of that?
    Mr. Collister Johnson. Sure. Thank you for the question. We 
instituted something called an enhanced inspection process in 
Montreal for all ships coming into the Great Lakes. Obviously, 
most of them are salties. That consists of Transport Canada, 
us, the Canadian Management Corporation, and the U.S. Coast 
Guard.
    So the notion is that until there is a national standard 
for ballast water, until there is technology for ballast water 
treatment, we have to do what we can to protect the Great 
Lakes. It has been shown in the sciences that flushing ballast 
tanks, be they tanks with water in them or not, with salt water 
really does a very effective job of killing the fresh water 
organisms that would live in the Great Lakes.
    So every ship coming in needs to flush its tanks out in the 
open ocean with full salt water. When they do come in, they are 
inspected to make sure that that is done. There was a 
compliance rate last year of 97.8 percent. Of the ones that 
didn't comply, those tanks are sealed. They go in the Great 
Lakes, they come back out, and they are inspected again to see 
that the seal hasn't been broken.
    So we really think this is an effective program, pending 
further technology that will treat ballast water.
    Mrs. Miller. Do you think it is having much of an impact?
    Mr. Collister Johnson. Yes, I do.
    Mrs. Miller. I mean on slowing down the commerce?
    Mr. Collister Johnson. Yes, I do. I mean, in a perfect 
world, Congresswoman, this would have been done many years ago. 
But we can't do anything about the past. We have to do 
something about the future. The recent science has shown, 
although it is too early to tell, but since 2006 there has been 
a noticeable drop in the rate of introduction of invasive 
species. I am just very hopeful that that is going to continue 
and we can prove that down the road.
    Mrs. Miller. Well, hats off to everybody that is involved 
in that program. We have to get our Coast Guard reauthorization 
in the ballast water programs through legislation through the 
Congress, certainly. But in the interim, to hear those kinds of 
numbers and what is happening is just fantastic, fantastic 
news. So hats off.
    Mr. Collister Johnson. Thank you very much.
    Mrs. Miller. I have got about a minute left, so I have a 
quick question for Mr. Shapiro. I was writing down some notes 
as you were speaking as well about sustainable infrastructure 
investment in the Great Lakes. You have $2.4 billion in the 
State Revolving Fund and 1,000 Clean Water projects. You know, 
in southeast Michigan the unfortunate, dubious distinction that 
we have in the city of Detroit--the sewage treatment and 
water--but the sewage treatment plant for the city of Detroit 
is probably the worst offender in the Great Lakes basin because 
of the huge network. It services several million people.
    We would like to do a better job but for all kinds of 
reasons, not the least of which is GM declaring bankruptcy this 
week, have not been able to. You cannot believe how bad it is 
getting in Michigan. I do think that our unemployment rate is 
going to be in Depression era numbers probably by September for 
the State. It is unbelievable what is happening there. Yet we 
want to clean up the Great Lakes. Can you talk a little bit 
about perhaps how some of the funding that you are looking at 
could be targeted towards the worst offender in the Great Lakes 
basin that wants to be an active participant in cleaning up our 
Great Lakes?
    Mr. Shapiro. Well, the funding that was proposed for the 
Great Lakes Restoration Initiative is specifically for non-
infrastructure activities. So given the problem you described 
and the needs for Detroit, that money would not be directly 
available for projects that involved hard infrastructure or 
improvements to the treatment plant and the sewer systems 
directly. Clearly, the increase in funding for the Clean Water 
Act Revolving Fund as well as the Recovery Act funding, which 
also included a $4 billion pot of money for supporting clean 
water infrastructure, are possible sources of funding.
    But that said, I recognize that as that pot of money gets 
allocated across States using the formulas that we use, which 
are in our statute, the amount of money available to any one 
State is often not large compared to the kinds of needs that a 
large metropolitan area would have, which might be in the 
millions if not billions of dollars. So we recognize that it is 
at best a partial answer in many cases.
    Mrs. Miller. Thank you. Thank you, Madam Chairwoman.
    Ms. Johnson of Texas. Thank you very much.
    The Chair now recognizes Ms. Edwards.
    Ms. Edwards. Thank you, Madam Chairwoman. Thank you all for 
your testimony. I just have a couple of questions for Mr. 
Shapiro. Obviously, from the State of Maryland, greatly in 
regard to what we are doing around the Chesapeake Bay but also 
looking at green infrastructure in our State and around the 
Country, I was curious to see that in the President's budget 
his request includes legislative language extending a 20 
percent reserve for green infrastructure projects or projects 
that propose water or energy efficient improvements to 
wastewater treatment projects. This is something I very 
strongly support and that Members of this Subcommittee have 
also.
    But I have gotten information from Maryland that the total 
amount requested from the Recovery Act green reserve was 
approximately $150 million. Yet the State is only required to 
set aside $24.3 million of the Recovery Act allocation. It is 
my understanding also that there are other States that are 
experiencing exactly this same situation with more requests 
from green reserve than the dedicated funding.
    So I wonder in your review of the implementation of the 
Recovery Act whether this is your understanding. Also, since 
there seems to be such demand for green infrastructure might we 
want to consider more than simply a 20 percent reserve in the 
budget to accommodate the need for things that obviously would 
be energy efficient in the long run?
    Mr. Shapiro. Thank you, Congresswoman. I think this is a 
very good question. I think, frankly, the reason for the 20 
percent set aside in the Recovery Act, which we carried forward 
into the 2010 budget, was to provide a hard floor and not a 
ceiling. There was some fear on the part of folks that because 
of the historic patterns of funding, and because of the 
relative newness of green infrastructure and some of the 
innovative energy efficient technologies, that there might be a 
reluctance--especially given in the case of the Recovery Act 
the need to get money to work quickly--there might be a 
reluctance on the part of States to go down that path, they 
might in fact kind of under fund green infrastructure. So the 
20 percent is in there as a floor, as I said. It is a good 
thing, to me anyway, that States are getting more requests 
above the 20 percent level.
    I think the question of whether to raise the floor is a 
tough one because there are many very important needs that 
States have in terms of funding infrastructure. We want them to 
take a hard look at where they will get the greatest results in 
terms of water quality, sustainability, and long term energy 
and water efficiency. It becomes a hard thing to kind of 
dictate precise percentages to States.
    So for the purpose of this budget, and again we will see 
how things work out as projects get funded and completed, but 
we are comfortable with the 20 percent floor. But I think as 
you go higher, you may be beginning to impact some other non-
green infrastructure projects that are also critically 
important to achieving water quality goals.
    So that is a balance that States, I think, are in a 
position to make. But in general it is good news that they are 
embracing the idea of green infrastructure.
    Ms. Edwards. It is. I would just urge you that although it 
is a floor, the States seem to be treating it almost as a 
ceiling. So we might want to consider ways that we actually 
could encourage more of that investment without imposing it on 
some other States.
    Just in my time remaining, we have had the TVA before of us 
a number of times, and I am curious about your purchase of 
energy and renewable energies. I wonder if you have thought 
about or considered--and this is completely speculative--a fee 
and tariff program so that you could, for example, encourage 
the development of solar. In a very decentralized way, if 
homeowners or communities implemented solar and they had extra, 
could you buy it from them and put it out on a grid? Can you 
just give me some thoughts about that?
    Mr. Thomas. I can. Thank you very much for the question. We 
have a couple of things going on. One is that we do currently 
have a program where we offer consumers the opportunity to 
essentially pay extra to fund green power types of initiatives. 
That is a program that is in place. We also have committed $192 
million in our current budget submission to promote other 
energy efficiency programs similar to that in design such that 
they would encourage people to conserve energy as well as 
promote other, more efficient energy uses.
    Ms. Edwards. Thank you. My time is expired. I would only 
conclude by saying one could look at these kinds of programs, 
if we were really creative about it, as reducing our need to 
further develop nuclear capabilities. Thank you.
    Ms. Johnson of Texas. Thank you. The Chair now recognizes 
Mr. Duncan.
    Mr. Duncan. Thank you, Madam Chairwoman. I am sorry I had 
to speak on the Floor and didn't get to hear everyone's 
statements. But I do have a couple of questions or comments for 
Mr. Thomas with TVA.
    Mr. Thomas, when I got here in the very late 1980s, at that 
time TVA was spending 34 cents of every dollar servicing its 
debt. I thought it was shameful that the leadership of TVA in 
the late 1970s and 1980s had gotten TVA into such heavy debt. I 
did write the Federal Financing Bank and we worked out an 
agreement to restructure some of that debt at a lower rate.
    But I am wondering about the debt that you have now. While 
you have brought it down some, it is still a tremendous debt. 
What percentage of TVA's expenses is going to service its debt 
now? Do you have most of that debt into long term debt that 
won't be affected that much if the interest rates shoot way up 
like some people are predicting?
    Mr. Thomas. Yes, sir. Thank you very much for the question. 
TVA's current debt is $24.9 billion. To service that, we spend 
approximately $1.4 billion in interest each year. That is about 
10 percent of our total operating budget. So we are, in 
conjunction with the Board, adopting a strategic plan. In 2007, 
we committed to paying down the debt that was associated with 
the existing assets we have over the life of those assets. So 
we are including that in our budget plans. As well, most of our 
debt is termed out in long term bonds and are not subject to 
the volatility of interest rates.
    Mr. Duncan. All right, good. Now, the main thing I want to 
mention is this coal ash spill. It didn't occur in my district 
but it was close. So I went down and had a briefing and a 
helicopter tour and everything several months ago. This spill 
that you had, it was five and a half months ago now, what I saw 
at that time was a war room of people. There must have been 
even at that time hundreds of people from every conceivable 
Federal, State, and local agency. There were people from all 
over the Country working to clean up that spill. It seemed to 
me that everything humanly possible was being done.
    The reports have almost all been very, very good, although 
it is very expensive. I have seen articles about $1 million a 
day or something like that. But I see in this briefing we have 
got, in the most recent submission dated May 1, it acknowledges 
that the total estimated cleanup costs for the Kingston site 
range between $675 million and approximately $975 million. But 
here is really what concerns me: This estimate does not include 
the potential costs for additional regulatory actions, 
litigation, fines, or penalties that may be assessed against or 
settled by TVA.
    I have noticed that we have had law firms and people coming 
in from New York, California, and all over the Country. We have 
a lot of people apparently with dollar signs in their eyes who 
want to make money off of this. As I have said, you have 
already had all these people from all these agencies plus 
private contractors working on this. And now EPA is overseeing 
this cleanup.
    What I am hopeful is that the EPA and TVA will keep in mind 
that already we are told, because of the Energy Bill going 
through the Congress, that people's utility bills are going to 
go way up. Now, if we get into just tremendous costs in 
regulatory fines, litigation, assessments, and settlements, it 
is going to hurt a lot of poor and lower income people in my 
area. Because while everyone wants to see the people whose 
property was affected made whole and cleaned up as much as 
possible, 99.999 percent of the people I represent or maybe 100 
percent of the people I represent weren't affected by this 
spill. I don't want to see their utility bills go way up 
because of the Energy Bill that is going through the Congress 
now and TVA's expenditures.
    So I hope that you will do everything you can and encourage 
the other leadership of TVA to not just come in and make 
ridiculous settlements because the money is not coming out of 
your pockets. I hope that the EPA will keep in mind that there 
are a lot of people who are already having trouble paying these 
utility bills. I hope that we won't just let these costs just 
explode even more. It is already at a ridiculous level, in my 
opinion. Thank you very much.
    Ms. Johnson of Texas. Thank you very much.
    Mr. Hare, you are recognized.
    Mr. Hare. Thank you, Madam Chairman. I just have a couple 
questions for Mr. Breen. What is the current number of Federal 
facilities that are listed on the Superfund's National 
Priorities List?
    Mr. Breen. I don't have the number directly in front of me. 
It is quite a few. It is probably, I am guessing, 100 to 150. 
It is in that ballpark.
    Mr. Hare. Of that number, EPA has established the goal by 
the end of this fiscal year that all of the sites will have 
interagency agreements with the EPA for the orderly cleanup of 
the facilities. What percentage of the current Federal 
facilities do not have interagency agreements?
    Mr. Breen. I don't know the percentage. I believe we are 
down to about 10 that don't have signed interagency agreements. 
But we can get you that number precisely.
    Mr. Hare. Thank you. I would appreciate that. Mr. Breen, in 
the past the EPA has identified the so-called Superfund 
pipeline which identified the number of proposed and listed 
toxic sites and where these sites were in the investigation, 
study, or construction process. My last question is can you 
provide the Subcommittee with a current pipeline for both 
Federal facilities and non-Federal facilities?
    Mr. Breen. You want the number of sites at their stages in 
the pipeline?
    Mr. Hare. Yes.
    Mr. Breen. Yes, we can.
    Mr. Hare. Thank you. I would appreciate that.
    I just have one other brief comment before I leave. Mr. 
White, I am only in my second term but I have to tell you that 
your enthusiasm when you testified for your Agency, you know, 
they are awful lucky to have you. We have a great panel here, 
but I just wanted to let you know that I could tell you have a 
genuine love of what you do. I appreciate that. I don't know if 
you had anything else you wanted to add because you only had 
five minutes, but I have three minutes and 14 seconds.
    [Laughter.]
    Mr. White. God bless you, sir. I was kind of feeling like 
the guy that never gets picked for the team.
    Mr. Hare. That happened to me a lot in grade school, let me 
tell you.
    Mr. White. Actually, I misspoke earlier. Two of those 
floodplain easements were in your district. There were two 
Democrats and two Republicans on this Subcommittee with about 
equal amounts of money on those floodplain easements.
    I want to thank you. I am a career person. I spent 30 years 
with this Agency and I am going to flat slap guarantee that 
everything we can do that is honest and ethical and transparent 
and fair to conserve this Nation's resources, we are going to 
do. And you can flat slap take that to the bank.
    Mr. Hare. Well, I represent a district that has 237 miles 
of the Mississippi River and seven locks. We have had some 
tremendous flooding there and a lot of devastation. I was just 
in a community called Gulfport that had a population of 250. It 
currently has 10. They are trying to certify the levee; they 
don't know what they are going to do. There are just a number 
of things that when you see--and you mentioned, I think you 
talked about agriculture in your remarks--you see that when 
some people say these are just agricultural levees, well, 
behind that levee is a farmer who has spent hundreds of 
thousands of dollars on equipment and land and all those kinds 
of things.
    So they can't plant for a year or perhaps two. I have 
talked to some of these farmers and they are wonderful people, 
but you just see the devastation that they have gone through. 
It breaks your heart. I toured that town the other day and 
there isn't anything left of it because of the breaches.
    So I appreciate everything. I looked at your pictures and I 
have to tell you, it is nice to see that work is being done and 
that people can actually be saved. I appreciate what you folks 
do.
    Mr. White. Thank you, sir. We are more the mom and pop 
operation. The Corps are the big guys on this block.
    Mr. Hare. Right. Well, thank you, Chief. I yield back.
    Ms. Johnson of Texas. Thank you very much.
    Mr. Cao?
    Mr. Cao. Thank you, Madam Chair.
    My first question is addressed to Mr. White. I represent 
the second Congressional district of Louisiana which was 
devastated by Katrina, so one of my main issues is coastal 
restoration. My question to you has two parts. The first part 
is, how are you working with the Army Corps of Engineers in 
order to address the issue of coastal restoration? The second 
part is, how can the money that you all receive through the 
stimulus package be used to restore the coast, especially along 
the Gulf Coast areas?
    Mr. White. Thank you, sir. I should mention that I was in 
New Orleans a couple of months ago and they took me around to 
the 9th Ward and various places. It is really shocking the way 
things are yet today.
    My Agency, through the Emergency Watershed Protection 
Program, worked hand in glove with FEMA and mostly with the 
Corps for debris removal. You all appropriated millions and 
millions of dollars for us. Most of that work is now done.
    We don't have any stimulus money specifically for coastal 
restoration but we are talking to some of the parishes down 
there. Is there a parish outside there called Burgemanns?
    Mr. Cao. Plaquemines.
    Mr. White. Plaquemines. They have a proposal to actually 
look at taking some of the easement funds we have and some of 
the Restoration funds and instead of making a hard, fast 
seawall to actually try to put back the softer, gentler 
nature's way with long leaf pines and native grasses that would 
absorb the impact of the flow. I was really intrigued by their 
proposal. I hopefully will get to visit with them more on that, 
sir.
    Mr. Cao. Thank you very much.
    My second question is directed to Mr. Breen. It deals with 
Superfund, Brownfields, and land revitalization programs. New 
Orleans pretty much has a lot of contaminated areas. One of the 
main locations that I am concerned with is called Gurtown. 
There, in the predominantly African American community, the 
children are playing on top of a playground that is located in 
land that is contaminated. How do you prioritize with respect 
to providing grant money to clean up these locations?
    Mr. Breen. Thank you. So there is a Superfund program and a 
Brownfields program. They each have separate processes. The 
Superfund program uses the National Priorities List primarily 
for funding long term remedial action, that is the kind of 
action that would take a substantial length of time to manage.
    On the Brownfields side, that is the more lightly 
contaminated sites. The grant process there is one with a 
national competition. Applicants submit typically once a year 
and we run a process. I expect we will be getting the next 
process out in the next few months. Then there is a panel that 
evaluates the applications by looking at a number of factors. 
But the kinds of factors you identified, particularly great 
need and an opportunity for revitalization, would be strong 
factors in that competition.
    Mr. Cao. Okay. Thank you very much.
    My last question is directed to Mr. Dunnigan. Louisiana 
probably produces close to a third of the Nation's seafood. We 
have a problem with the dead zone at the mouth of the 
Mississippi. I would like to know what plans you have in 
addressing the issue of the dead zone.
    Mr. Dunnigan. Yes, thank you very much. There has been an 
interagency effort underway for the last four years that is led 
by the EPA to deal with the hypoxia problem in the Gulf of 
Mexico. The NOAA role in addressing that is to help provide the 
science. So what we have been able to identify is that the 
nutrients that are coming down the Mississippi River that are 
ultimately causing that dead zone are really a function of 
water runoff associated with agriculture. So the question for 
all of us in the Federal Government is to figure out ways of 
dealing with the agriculture industry in a way that can be 
responsible so that they can do good practices that will 
alleviate the problem.
    On a continuing basis, we fund year to year monitoring of 
the size of the dead zone. Dr. Nancy Rabalais from Louisiana 
State University is the person that runs that program for us. I 
was talking to her last week and they are getting ready to go 
to sea again later this month to begin their annual studies. So 
our role on that is to help with the science and to collaborate 
with EPA, the Corps, the Agriculture Department, and other 
Federal agencies as well as the States.
    Mr. Cao. Thank you very much.
    Ms. Johnson of Texas. Thank you very much.
    Ms. Hirono?
    Ms. Hirono. Thank you, Madam Chair. I am very supportive of 
this historic increase in funding for EPA, particularly the 
Clean Water SRF and the Drinking Water SRF because those of 
course will be very much useful to the State of Hawaii.
    However, I do have one concern. That is the non-funding for 
the Watershed and Flood Prevention Operations Program. Mr. 
White, you testified that most of this money has been 
earmarked, some $24 million, which leads me to think that 
perhaps we should actually add funding so that your Agency can 
also prioritize projects. That is kind of a rhetorical comment.
    Before I get to my question for you, Mr. White, though, I 
wanted to set the stage. Agriculture in Hawaii in the most 
recent past really consisted of huge plantations growing sugar 
cane and pineapple. We are down now to basically one sugar 
plantation. You can imagine when these plantations closed the 
huge economic displacement that occurred in dozens of 
communities. Thousands of acres became available for other uses 
and clearly we are not going to put development on or pave over 
all of these acres. So what Hawaii is moving toward is 
diversified agriculture.
    In order to do that, they need water. The sugar plantations 
relied on pretty extensive irrigation systems in order to run 
their plantations. These systems are the major sources of water 
for diversified agriculture in Hawaii. I also note that Hawaii 
is one of those States where we have to pretty much ship in 
some 80 percent of our food. We can't truck in our food; we 
can't rail in our food. So we are very dependent and therefore 
very interested in becoming much more food self sufficient.
    So we do access this program that you have zeroed out for 
maintaining our irrigation systems. I note in your testimony 
that you anticipate that unfinished projects will continue to 
receive local support. But that is just it. There is not enough 
local money. It takes millions of dollars to maintain these 
vast water systems. So if you have some other program that we 
could access instead of the Watershed and Flood Prevention 
Operations Program, I would like to hear that. Otherwise, I 
would hope that we could reconsider zeroing out this program.
    Mr. White. If I would have known what company made Rolaids, 
I would have bought stock in them last week because this is the 
one question that I have been fearing until the Ranking Member 
gave me the perfect answer. Sometimes priorities collide. You 
certainly do have that option to reconsider.
    I am well aware that Hawaii does make use of earmarking 
these programs. It primarily is for irrigation systems to 
ensure that your farmers have an adequate water supply. You 
have some interesting land ownership patterns there and a lot 
of people will not actually qualify for some of the hard core 
agriculture programs because of their income restrictions. 
Also, we are very concerned about the coral reefs off the 
coast. Coral reefs are one tenth of 1 percent of the ocean but 
they provide habitat and life for 25 percent of the life in the 
ocean. So it is absolutely critical.
    You have a vote and you have a Chairwoman or Ranking 
Member. You can reconsider anything, ma'am.
    Ms. Hirono. Thank you. I am glad that you apparently have 
an awareness of some of the really unique situations and 
circumstances in Hawaii. One of the reasons that we are able to 
use this particular program for what we need is because it has 
flexibility. There are a lot of other Federal programs that do 
not meet the particular unique needs of Hawaii. But this is one 
that does and that is why I would appeal to not just you but 
also our Chair for continuing support of this program. Mahalo.
    Ms. Johnson of Texas. The Chair now recognizes Mr. Boozman.
    Mr. Boozman. Thank you, Madam Chair.
    We appreciate you all being here. I appreciate you being 
such that we really, I think, have learned a lot today.
    Let me ask you, Mr. Shapiro, just a couple of things and 
then I have a question for Mr. Dunnigan. Let me go ahead and 
ask that, Mr. Dunnigan, so you can think about it. We 
understand that in recent years NOAA has received 
appropriations to fund shipboard testing of ballast water 
treatment systems. Can you tell us the status of the testing 
and what the results you have gotten are as far as efficacy of 
the shipboard tested ballast water treatment systems?
    Is NOAA required to submit a written report to Congress 
within 90 days of the completion of the testing? Have any 
reports been submitted to Congress? If not, perhaps you can 
send us some of the preliminary stuff that you have found.
    Mr. Shapiro, we have all watched the bankruptcy of General 
Motors and Chrysler and things. We see the entwinement of 
markets overseas as a result of making things back and forth as 
far as parts and things like that. How have the Buy American 
provisions in the American Recovery and Reinvestment Act 
impacted EPA's ability to implement the Act?
    Mr. Shapiro. Well, among the issues that we have had to 
deal with in terms of implementing the Recovery Act, I think we 
have probably spent more time and more debate on how to 
interpret and implement the Buy American provisions. It took a 
while for OMB to get its guidance out. They did in April and 
then we issued EPA specific guidance based on the OMB guidance. 
But because those types of provisions had not been applicable 
before to infrastructure and because the Recovery Act 
implemented a Buy American approach, it was different from some 
of the earlier Buy American legislative provisions that had 
been in place. It really charted some new ground for us.
    We are at the point now where we have guidance out. We are 
continuing to get a large number of questions from 
municipalities as they go to bid or consider bids and encounter 
problems in certain product areas. And we are getting some 
concerns expressed by other countries, especially companies in 
Canada and in Mexico, who kind of view the market in North 
America as being a single market. So it has caused a lot of 
challenges. In the end, I think we will be able to get the 
projects done and awarded. But it has been a challenge for us.
    Mr. Boozman. I think that is something we really need to 
watch. I know you have got a limited waiver provision or 
whatever. But that is something I think that you need to watch 
and let us help if we need to in the future.
    Under the American Recovery and Reinvestment Act, not less 
than 20 percent of the funds that were appropriated for the 
Clean Water State Revolving Fund are to be used to address 
green infrastructure and water or energy efficiency 
improvements. Does EPA have a system set up to make sure that 
the proposals that you are receiving are effective? This 
technology is new. Some of it is real old and has been perhaps 
ineffective or hasn't been used in a while. This new stuff we 
don't really know. Do you have a rating system that you are 
using?
    Mr. Shapiro. We don't have a rating system per se. Each of 
our regional offices will be reviewing the list of projects 
identified by States for the green infrastructure component 
more to make sure that they really are legitimate green 
infrastructure projects.
    We think that the technologies in fact are out there. They 
are proven. Like with other technologies that municipalities 
have to choose from in dealing with wastewater issues, some 
prudence is advisable in terms of making sure the approaches 
that are being developed reflect sound engineering principles. 
We have a lot of guidance out there, as do other organizations, 
in terms of how to build things like green gardens and green 
roofs and other types of green infrastructure. So there is a 
wealth of very valid technical information available to 
municipalities and their consultants that will allow them to 
choose appropriately.
    But we are taking a closer look at the green projects than 
we do typically in reviewing State use plans because we want to 
make sure that these really are valid projects that meet the 
intent of Congress's requirements.
    Mr. Boozman. Thank you.
    Mr. Dunnigan, can you comment very quickly on the ballast 
issue.
    Mr. Dunnigan. Yes, sir. I am going to have to get you a 
more complete answer to your question about the exact status of 
that project and any reporting requirements that we have for 
Congress. We are certainly willing and would love to have the 
opportunity to work with the Committee staff.
    Our focus has been on the science of what happens when 
invasive species get loose in ecosystems and how they can be 
controlled. We also worked to help develop the type of approval 
certificate for a ballast water management system through the 
Intergovernmental Maritime Organization.
    Mr. Boozman. Good. That would be real helpful. I know the 
staffs on both sides would like that information. Thank you, 
Madam Chair.
    Ms. Johnson of Texas. Thank you very much.
    Ms. Titus?
    Ms. Titus. Thank you, Madam Chair. I represent Nevada and 
much of the State is considered a national sacrifice zone. I am 
referring to the Nevada test site. So anything we can do to 
clean up other parts of the State is very helpful.
    That is why I am glad to see you, Mr. Breen, say that 
Brownfields cleanup and redevelopment continues to be one of 
your top environmental priorities. The budget request, though, 
of $175 million doesn't seem like very much for a national 
effort to clean up Brownfields. I wonder if that really is 
enough. You might elaborate on how you are able to leverage 
those dollars.
    Also, I agree with you that one of the best ways to clean 
up the contaminated sites and address the blighted properties 
is to consider what the future uses of the land will be. I am 
especially interested in the whole concept of Brownfields to 
Brightfields that would link solar energy projects to former 
Brownfields. Would you comment on that and tell us what EPA 
plans to do? How much of a priority will that be and how much 
money might be going to that sort of thing?
    Mr. Breen. Yes, thank you very much. First on the 
Brownfields appropriation request, as you observed the 2010 
appropriation request is approximately $175 million. That is a 
little more than the 2009 enacted, I think about $5 million 
more. But it does come on top of the Recovery Act appropriation 
to Brownfields, which is an extra $100 million. So the 2009 to 
2010 amount is really about $450 million when looking at the 
two years; $170 to $175 million plus $100 million is the 
ballpark.
    Of course, Brownfields is not the only game in town. 
Federal funding is not the only source of funding. So 
thankfully many States have sibling programs that we work with. 
In fact, an important part of that $175 million from the EPA is 
to directly fund State programs that then leverage private 
dollars and local dollars. So there is a lot of interest in 
exactly the kind of work that you observed.
    Finally, the other Federal cleanup programs are doing 
similar tracks with other kinds of sites. So the Superfund 
program itself has hundreds of millions of dollars for the most 
contaminated sites and the RCRA Corrective Action Program 
cleans up typically ongoing facilities for chemical plants. So 
there is a lot of work on the land cleanup program.
    On Brownfields to Brightfields, we are working on this. We 
are looking to collaborate with the Department of Energy's 
National Renewable Energy Lab, NREL, where we hope we can map 
all the contaminated facilities across the Country--at least 
those that have Federal involvement in them--and match that up 
with the renewable energy opportunities including solar, which 
you mentioned, but perhaps others as well. That way, these 
facilities could be turned from something where it is a 
community concern to a source of community pride.
    Ms. Titus. I think that would be great, solar especially in 
southern Nevada, as it provides a real opportunity. I know a 
number of years ago in the legislatures of Nevada I sponsored 
the State Brownfields bill. At that time, nobody knew much 
about it. It wasn't a very appealing name. It wasn't very sexy 
like other legislation. But I think it makes a big difference 
so I am very supportive of what you are doing there.
    Ms. Johnson of Texas. Mr. Perriello?
    Mr. Perriello. Thank you very much.
    I have a question, Mr. Shapiro. My understanding is EPA is 
currently reviewing about 150 to 200 mountaintop removal 
permits. Of the ones reviewed so far, roughly 90 percent have 
been permitted. Do you expect that percentage to remain in 
place with the remaining permits?
    Mr. Shapiro. It is tough to predict. As you have indicated, 
we have started a review focusing on those that were furthest 
along in the process. As you indicated, a relatively small 
percentage have been identified for further review by the 
Agency and discussion with the Army Corps of Engineers and the 
permitees. As we go forward, it really depends on the mix of 
proposals that are present.
    The kinds of considerations that weigh in our judgement 
when we decide to raise issues have to do with the scope and 
scale of the impact of the proposed mine, the sensitivity of 
the resources that might be impacted, and at least our initial 
assessment of the degree to which damages have been avoided to 
the maximum extent practicable.
    So I think that although the evidence we have in the first 
200 is sort of the best we have to project into the future, we 
can't guarantee. We are not shooting for a specific percentage. 
We are really shooting to identify those that are seriously 
problematic and to try to address them.
    Mr. Perriello. When you say that you are looking at the 
ones furthest along, do you mean that have done the most to 
look at potential impacts on the ecosystem and environment or 
simply furthest along in terms of investment and development?
    Mr. Shapiro. Furthest along is in the Corps permitting 
process. I thank you for that question to allow me to clarify. 
What had happened is that because of some uncertainty involving 
lawsuits that were in play, there had been kind of a hold up in 
the backlog of permits that developed over time.
    So in fairness to the permitees, we sort of focused early 
attention on those that were furthest along in terms of 
temporal readiness for permitting in the view of the Corps' 
process. Again, as we continue to work our way through that 
backlog, we will try to do that in a way that kind of respects 
the amount of time it has taken already to get the permit up to 
where it is.
    Mr. Perriello. Is there an issue at all with a lack of 
funding for oversight that creates a hindrance to your ability 
to review and suggest alternatives to some of these mountaintop 
removal situations around Appalachia in particular?
    Mr. Shapiro. At this point I think we have, in my view, 
resources to do the job in front of us. Like anyone else, I 
think if we had more staff who were experienced in this area, 
it is possible that we could move faster. But I think we are 
able to juggle the resources that we have, again by focusing on 
those that are of the highest priority, getting the maximum 
results in terms of our investment of staff.
    Mr. Perriello. Thank you very much.
    Ms. Johnson of Texas. Thank you very much. Now I will 
finish the first round of questioning with a couple of 
questions.
    Mr. Thomas, the Tennessee Valley Authority announced that 
it would complete its root cause analysis on the Kingston coal 
ash storage failure in June of 2009. But your oral testimony 
indicated it would be later this summer. When do you think 
there might be a specific date that this report will be 
completed?
    Mr. Thomas. Thank you for that question. I am sorry, we do 
believe that it will be sometime towards the end of June but at 
this point we just don't know the specific date. When I stated 
later this summer, it was intended that it would be June. But 
there is a likelihood that it could go further.
    Ms. Johnson of Texas. And you are planning to submit a 
report to this Committee?
    Mr. Thomas. Yes, ma'am.
    Ms. Johnson of Texas. Okay. Your estimate for the cleanup 
is between $675 to $975 million. Does this include the expected 
long term cleaning cost?
    Mr. Thomas. Yes, ma'am. That does include some allowance 
for what the long term remediation costs are. As we get further 
in to the reclamation activities, we will have a better 
understanding of what the long term estimates will be. But it 
does include some funding for that.
    Ms. Johnson of Texas. So this might not be the total? Do 
you think it will fall somewhere between $675 and $800 or would 
it be $975? Or would it be beyond that?
    Mr. Thomas. We do not know that the final estimate will be. 
As we move through the work and uncover more activities, it 
could be more, or it could be that we can find more cost 
effective ways as well. But this is our current estimate. I do 
believe that it would be subject to change over time as we have 
more information.
    Ms. Johnson of Texas. Thank you.
    Mr. Shapiro, again, the Administration should be commended 
for its request for the Clean Water State Revolving Fund. You 
mentioned in your testimony that the increase in investment 
will preserve and create jobs. Do you have any estimate on the 
number of jobs that will be increased and the funding that it 
will affect?
    Mr. Shapiro. EPA hasn't separately estimated the number of 
jobs. I believe it is the Council of Economic Advisors that has 
come up with some general guidelines in terms of projecting 
jobs. They would say that roughly for every $92,000 of 
investment a job would be created directly or indirectly in the 
economy.
    But EPA has not done a separate analysis of that. We are 
asking, as projects go into construction and funding, we will 
be gathering some additional information on how many people are 
actually employed at those jobs. But at this point we don't 
have a separate estimate.
    Ms. Johnson of Texas. Thank you very much.
    The Chair now recognizes Dr. Ehlers for a second round.
    Mr. Ehlers. Thank you very much. I have just a few brief 
questions. Mr. Shapiro, how will the Great Lakes Restoration 
Initiative be administered? In particular, I am wondering what 
role the EPA's Great Lakes National Program Office will play. 
Will they be tasked as a lead agency?
    Mr. Shapiro. Yes. Overall, EPA is given the lead for the 
Initiative but operationally it will be managed through the 
Great Lakes Program Office with a lot of interaction from the 
Office of Water as well as the Administrator's Office, given 
the importance of this Initiative to her and to the Agency.
    Mr. Ehlers. How will you ensure accountability of the other 
agencies that are involved? Do you have that structure 
developed yet?
    Mr. Shapiro. We are beginning to. It has been a fairly 
intense process of moving through the budget process. But in 
effect, each agency--in developing the plan that we have for 
using the money in fiscal year 2010--each agency has come up 
with a specific set of projects that it has identified that fit 
into the overarching Great Lakes collaboration strategy. They 
have been agreed to by a consensus process across the agencies 
as being an important early investment.
    In the context of proposing each of those projects, the 
agencies have had to identify measures of progress and results 
that they will track and report back to us on. Again, we are 
still putting that entire process in place. But we are very 
much focusing on accountability for the use of the money, 
transparency to the public in terms of how that money is used, 
and identification of clear results and criteria with respect 
to each of the projects that are being proposed for funding.
    Mr. Ehlers. Will the output from the collaborative 
agreement play a role in these decisions?
    Mr. Shapiro. Yes. In fact, the architecture for what we are 
doing really derives from the 2005 strategic plan report that 
the collaborative came up with. The ways in which we have 
organized the projects and set priorities really reflect the 
perspective of that report as well as the specific priority 
areas and actions that were identified in that report.
    Mr. Ehlers. Well, I have to say I am very excited about 
this opportunity. I think it is really important. You have 
heard all of the discussion about how important the Great Lakes 
are. It is crucial to the future of this Nation, particularly 
as water becomes more and more important to the future of our 
Nation.
    So I wish you well and I hope it all works out. I am just 
delighted with what I have heard. Thank you very much.
    Mr. Shapiro. Thank you. We are excited, too.
    Ms. Johnson of Texas. Thank you very much. That concludes 
our questions. Let me thank all of the witnesses for being 
here. I hope that the requests that were made for you to follow 
up will be given attention.
    Thank you. The Committee is adjourned.
    [Whereupon, at 12:00 p.m., the Subcommittee was adjourned.]



 HEARING ON AGENCY BUDGETS AND PRIORITIES FOR FISCAL YEAR 2010, PART 2

                              ----------                              


                         Tuesday, June 16, 2009

                  House of Representatives,
   Subcommittee on Water Resources and Environment,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 2:44 p.m., in 
Room 2167, Rayburn House Office Building, Hon. Eddie Bernice 
Johnson [Chairwoman of the Subcommittee] presiding.
    Ms. Johnson. The meeting will come to order. Good 
afternoon. Today's hearing marks the second hearing on the 
President's fiscal year 2010 budget request and the priorities 
of agencies under the jurisdiction of the Subcommittee.
    At today's hearing, the Subcommittee will receive testimony 
from the Army Corps of Engineers, the International Boundary 
and Water Commission, and the Agency for Toxic Substances and 
Disease Registry within the Centers for Disease Control and 
Prevention.
    As I noted at the Subcommittee's last hearing, for the most 
part, the President's fiscal year 2010 demonstrates that change 
has finally come to Washington, and, for the most part, most 
agencies within the jurisdiction of this Subcommittee is a 
welcome change.
    For example, in the fiscal year 2010 budget request, 
President Obama has requested the highest funding level ever 
for the Environmental Protection Agency and the single highest 
request for EPA's Clean Water State Revolving Fund since it was 
enacted in 1987. While only 1 year ago, I was concluding that 
the last administration's budget was not adequate to meet the 
Nation's needs, this budget message is much more optimistic.
    However, as I also noted at the last meeting, there are 
portions of this budget that I do not agree with and believe 
could undergo some improvement. That is my overall impression 
of the fiscal year 2010 budget request for the Army Corps of 
Engineers, which, although the highest request for the civil 
works program on record, is still close to 6 percent below 
their appropriated levels for the agency in fiscal year 2009. 
My greatest disappointment in the Corps' budget request is for 
the investigation and construction accounts which are 
respectfully 40 percent and almost 20 percent below last year's 
appropriated levels for these accounts. For the investigations 
account, this disappointment stems from a concern that at the 
requested amount, the Corps of Engineers would be unable to 
plan and design the next generation of projects within its core 
missions of environmental restoration, flood damage reduction 
and navigation. In fact, the President's budget requests 
funding for only three new project specific studies and two new 
programmatic studies.
    In addition, if enacted at the levels proposed, the fiscal 
year 2010 investigations budget could have a negative effect on 
staffing levels at the Corps' district offices, because the 
salaries of the Corps' employees are paid from the project 
funds and in part from funds for project studies.
    In addition, the need for new projects is increasing and it 
is critical to maintain and enhance the capability of the 
Corps' planning mission both for the civil works program and 
for its military competency.
    For the construction account, I am disappointed that the 
budget only requests $1.7 billion for the construction of 
environmental restoration, flood control, shore protection and 
river and harbor projects. As was evident during the debate of 
the American Recovery and Reinvestment Act of 2009, the Corps 
had identified approximately $12 billion in so-called ready-to-
go projects where work could be undertaken almost immediately 
upon enactment. Clearly this unmet need was not addressed by 
$4.6 billion that was actually appropriated for the Corps in 
the Recovery Act. However despite this fact, these so-called 
ready-to-go projects do not reappear in the budget request for 
fiscal year 2010.
    I am equally disappointed that the budget only requests 
funding for five new starts that were authorized in the Water 
Resources Development Act in 2007. That monumental piece of 
legislation authorized a myriad of projects across the varied 
missions of the Corps which are vitally important to local 
community needs. However for the most part, these authorized 
projects were passed over for funding in the budget request.
    The one point of praise for the Corps of Engineers' budget 
request is the close to 14 percent increase in funding for 
operation and maintenance of Corps' projects and facilities. 
Operation and maintenance funds are necessary for the 
preservation, operation, maintenance and care of existing river 
and harbor, flood damage reduction, environmental restoration 
and related projects. The administration's request for this 
account recognizes the importance of operations and maintenance 
needs and restores a commitment to reliable and efficient 
operations of our Nation's vast water infrastructure.
    I am pleased we are joined this afternoon by witnesses of 
the International Boundary and Water Commission and the Agency 
for Toxic Substances and Disease Registry. Both agencies have 
received slight increases over their fiscal year 2009 
appropriated levels.
    However, the issues that I am most interested in deal more 
with policy than with funding. For the IBWC, I am concerned 
about your decision to move ahead with the construction of 
wastewater treatment facilities to address sewage flows 
emanating from Tijuana, Mexico at the South Bay International 
Wastewater Treatment Plant. As you should know, our Committee 
colleague, Mr. Filner, has been an ardent advocate for 
addressing Mexican sewage in Mexico, as was enacted through the 
actions of this committee and the Tijuana River Valley Estuary 
and Beach Sewage Cleanup Act of 2000, as amended.
    What I failed to gather from your testimony is why the IBWC 
has seemingly ignored the implementation of this law and has 
chosen to return to a plan that has been repeatedly rejected by 
this committee over the years.
    For the ATSDR, my attention focuses not on what is in your 
budget request, but on the importance of what you describe as 
meeting new challenges in the future related to toxic exposure. 
I am encouraged by your Agency's participation in a national 
conversation on public health and chemical exposures which 
seems to center on rethinking how average individuals may come 
into contact with toxic chemicals and exploring ways to 
minimize these contacts.
    As a former nurse, I understand the potential impacts that 
toxic substances can have on human health. Over the past few 
years, the Subcommittee has held several hearings on emerging 
exposure pathways to chemicals of concern, including the 
presence of emergent contaminants in drinking water and surface 
water. We have seen an ever-growing body of evidence that these 
chemicals are harming the natural ecosystems and may be posing 
a similar threat to human health over the long term. This 
Subcommittee will continue to track your efforts as well as the 
efforts of the National Center of Environmental Health, and I 
look forward to your recommendations from the conversation.
    I also applaud your efforts with respect to the recent coal 
ash release in the Tennessee Valley Authority's Kingston Power 
Plant. This Subcommittee has been closely following this issue, 
and I have traveled to Kingston to see this spill firsthand. I 
would appreciate your keeping the Subcommittee informed of your 
efforts.
    And, again, I welcome each of the witnesses here this 
afternoon, and I yield to the Ranking Member of the 
Subcommittee, Mr. Boozman, for any comments he might have. 
Thank you.
    Mr. Boozman. Thank you, Madam Chair, for calling this 
hearing, which is a continuation of the hearing that we held 2 
weeks ago to examine the administration's budget proposals and 
priorities for the coming fiscal year. Today we will hear from 
three additional agencies whose work falls within the 
jurisdiction of our Subcommittee, the Army Corps of Engineers, 
the U.S. section of the International Boundary and Water 
Commission, and the Agency for Toxic Substances and Disease 
Registry.
    The military realm of the Army Corps of Engineers is 
literally older than the Nation itself. Its civil works mission 
is almost as old. It began with the mission of supporting 
navigation to expand the commerce of a young Nation. Later, 
Congress added the mission of reducing flood damages, to 
address the economic and social suffering caused by such events 
and, most recently, Congress gave the Corps the mission of 
restoring the quality of our aquatic ecosystems.
    For nearly two centuries, the civil works mission of the 
Corps have contributed to the economic vitality of the Nation 
and improved our quality of life. At the same time, the civil 
works side of the Corps represents an experienced, engineering 
workforce that can be quickly mobilized to address a national 
defense threat or a natural disaster.
    The fiscal year 2010 budget request by the administration 
for the Corps of Engineers is a little more than 5 billion. 
This request is 318 less than what Congress enacted in fiscal 
year 2009. Given the fact that the navigation projects and the 
flood damage reduction projects provide economic benefits to 
the Nation, I would like to see the administration place a 
higher interest in the Corps' work. All of the Corps' projects 
put people to work, which is another reason to put these 
investments high on the priority list.
    I am concerned that the Corps has not been able to produce 
a final Chief's report for a new Water Resources Development 
Project in a number of years. While I know that this is 
somewhat the result of Congress not funding a robust study 
program in the investigations account, I believe the Corps 
needs to look at how it can streamline its study process so 
that good projects can come before the Committee more quickly 
for authorization and consideration.
    The International Boundary Water Commission is charged with 
identifying and solving boundary and water problems arising 
along the nearly 2,000-mile border between the U.S. and Mexico. 
We share a lot of water and water infrastructure with our 
neighbor to the south, so it is important that these resources 
are well managed, well developed, and well maintained.
    Like so many other places in the country, the Commission 
has a number of levees and dams in its inventories that are in 
need of repair or rehabilitation. It is important that this 
agency have the resources and the priority to make these 
facilities safe and efficient.
    The Agency for Toxic Substances and Disease Registry is a 
branch of the Centers for Disease Control, is the Nation's 
public health agency for chemical exposure. It has the task of 
preventing, determining, and mitigating health effects at sites 
with toxic exposures. This is very important work. It includes 
a recently begun study of the potential health effects of the 
coal ash spill in Tennessee last year.
    I thank all of you for being here and look forward to your 
testimony and yield back, Madam Chair.
    Ms. Johnson. Thank you very much.
    The Chair now recognizes Mr. Cao.
    Mr. Cao. Thank you, Madam Chair. And I thank you for 
holding this important hearing today.
    The work of the Army Corps of Engineers is particularly 
important in my district, the Second District of Louisiana, 
which includes parts of Orleans and Jefferson Parishes in 
southeastern Louisiana which was devastated by Katrina back in 
August of 2005. Many homes, including mine, and much of our 
public facilities, police stations, firehouses, hospital, 
health clinics, and schools were destroyed by the floodwaters 
that rushed into the city when levees failed.
    Our communities, including the remarkable city of New 
Orleans, are still struggling to rebuild. But we are making 
progress, thanks to the sustained oversight by this Committee, 
including our Ranking Member, John Mica, and the Chairman, 
James Oberstar. I am proud to call these esteemed gentlemen 
colleagues and to share in their level of New Orleans and 
desire to see my district rebuilt.
    The Army Corps' work is critical to ensuring the health and 
safety of my constituents, given the significant construction 
and ongoing operations by the Army Corps of Engineers in my 
district. I am interested in hearing from Lieutenant General 
Van Antwerp about the status of several key issues, including a 
follow-up to my letter of August 27, 2009 regarding the 
permanent pump project. Specifically, I would like to know what 
resources would be required for the Corps to construct the 
highest level of protection that is offered by Option 2(a), the 
legal status of the inner harbor navigational canal LAP project 
and the Corps' plans for disposing dredged materials generated 
during construction, and, finally, how the Corps in Louisiana 
is spending the dredging dollars available from the fiscal year 
2009 omnibus appropriations bill and the stimulus bill, 
especially given as reported in the Saturday's Times Picayune 
newspaper, these dredged materials would make a significant 
impact on coastal reconstruction.
    You and I ultimately share the same goal: the recovery of 
Orleans and Jefferson Parishes. I remain your partner in seeing 
this endeavor through and ensuring we do not repeat past 
mistakes.
    Thank you again, Madam Chair, for holding this very 
important hearing.
    Ms. Johnson. Thank you very much.
    Congressman Brown.
    Mr. Brown of South Carolina. Thank you, Madam Chairman and 
Ranking Member Boozman, for holding today's hearing to review 
the Army Corps' budget of 2010. While there are some 
improvements, this request continues to pattern under the White 
House Budget Writers Union Corps as a low priority. This 
resulted in a budget that significantly ignores the needs of 
the Corps, especially its navigational program.
    According to testimony just last month, there are about 900 
harbors in the United States and around 700 of those are not 
dredged to the authorized depth. That means seven out of nine 
ports are not being kept up to standard. Yet we are sitting on 
a harbor maintenance trust fund that is expecting a balance of 
over $5 billion by the end of this fiscal year.
    Congress created the trust fund to support the maintenance 
of our harbors. Instead, the trust fund is used as a budget 
offset. This has especially hit harbors and waterways that 
support small communities such as the port of Georgetown in my 
district. Because funds are not appropriated, these harbors 
silt in, causing traffic to go to other ports. At the end of 
the day, unless a Member of Congress is fighting for that 
particular harbor, the only funding it receives is enough to 
tell us about how bad things are. If a Member fights for the 
project, they are attacked for earmarking.
    I have statements here from the South Carolina State Ports 
Authority and the harbor pilots from both the port of 
Georgetown and the port of Charleston that I would like to 
submit for the record, Madam Chair. These statements go into 
even more details about the impact of reducing funding on even 
major ports like Charleston, and the devastating impact of 
little funding for harbors like Georgetown.
    I note that the request includes a proposed new use 
navigational pilot program which is costing at least $700,000 
to even bring it dredged to the harbor for work. I am 
interested in learning more about this proposal. While I am 
pleased that there is some attention being paid to the small 
harbors in the budget, I am concerned that this proposal will 
erode current Federal responsibilities for maintenance of these 
harbors.
    Madam Chair, because of the economic importance of our 
port, we on this Subcommittee must begin to pay more attention 
to the Corps' navigational program. Port-related jobs go far 
beyond just those doing the maintenance work. Port operations 
in South Carolina facilitates over 260,000 jobs and creates 
nearly $45 billion in economic activity each year. Stewardship 
of these navigational projects should be our top priority.
    I want to thank the representatives from the Corps for 
coming here to testify today and I look forward to their 
testimony.
    Ms. Johnson. Thank you very much,.
    Mr. Diaz-Balart.
    Mr. Diaz-Balart. Thank you very much, Madam Chairwoman. I 
also want to thank all of you for being here today. I want to 
thank the Chairwoman for holding this hearing. And obviously it 
is always a privilege to see a Floridian here among us. Good to 
see you, my friend.
    I have some concern regarding funding for Everglades 
restoration. Now, first in the President's fiscal year 2010 
budget, he requested slashing the construction account by 423; 
actually, almost $424 million. And as we all know, in 2007 
Congress finally enacted the long-awaited WRDA legislation 
which authorized the first three restoration projects, which 
are Picayune Strand, Indian River Lagoon and Site 1. Now I have 
been informed however, that--my understanding is that in a 
typical fiscal year that the Corps funds about 240 construction 
projects, but that in fiscal year 2010 budget only 86 projects. 
I don't know if that is accurate. But including--just five new 
starts will be constructed is my understanding.
    Now, additionally, the investigations account was cut by 
$68 million. This account is vital. It is important for 
studying the potential projects, restudying authorized 
projects, and planning and specification for projects, 
obviously, just prior to construction. As you know, CERP 
involves 68 projects in total. So this funding is vital to 
ensure that other projects are able to move forward.
    Now, I understand that--I guess the Corps would like to see 
$214 million in fiscal year 2010, is my understanding, for 
restoration, including beginning construction of the three 
authorized projects. But this funding, obviously, must compete 
with other national priorities such as--a lot of other 
priorities with a much smaller pot. Again, that is part of my 
concern.
    Now, I don't know if you all had a chance to see in the 
Miami Herald this morning, there is an article about the 
current land federation dispute among the Water Management 
District, South Florida Management District, the Corps and the 
offices of the OMB, the administration. The article states that 
the cost-sharing issue must be resolved by the administration 
before any Everglades dollars can be spent on anything, 
including the funding that was provided in the stimulus. Again, 
that is what the article states.
    Specifically, there is a statement there by Stu Applebaum, 
that says that, quote, could potentially lose some of the $183 
million set aside in fiscal year 2009 for the Everglades.
    Then, Mr. Salt, I believe you sent a letter yesterday, I 
believe, to Chairman Visclosky stating your decision to remove 
Site 1 from the Civil Works Recovery Act funding plan. 
Obviously, both Picayune or IRL were also deemed ineligible for 
stimulus dollars. So I am not going to get into the whole issue 
about what projects should have been there, should not have 
been as new starts, but obviously this raises serious concerns.
    In the letter it says that if appropriations for Site 1 are 
made available in fiscal year 2010 energy and water 
appropriations bill, then Site 1 will become eligible to 
receive Recovery Act funding if obligated Recovery Act funds 
for civil works activities remain available at that time, and 
then we will consider allocations for such funds to Site 1.
    So again, obviously, the combination of a potential zeroing 
out of fiscal year 2009 in stimulus dollars, the fact that the 
first three authorized projects now are ineligible for stimulus 
dollars, and now a significant decrease in construction funding 
for fiscal year 2010 leaves me with some serious concerns 
regarding this administration's commitment to Everglades 
restoration.
    Obviously, this is a critical time for the Everglades, as 
we all know. It took 7 years to enact WRDA. That was Congress' 
fault. And any further delays in commencement of construction 
of these important projects could be, frankly, very detrimental 
for ongoing efforts. So basically I am a little concerned about 
what the commitment is for Everglades restoration. Will it be a 
priority for this administration? What steps are going to be 
taken to ensure immediate action on the cost-sharing master 
agreement by the administration so we can move forward on that? 
And then, obviously, we need to see if we can ensure that our 
dollars are specifically reserved for Site 1, as well as 
Picayune and IRL, assuming that there is funding in fiscal year 
2010. Again, those are some of the concerns.
    I know it is a mouthful, but I just wanted to bring those 
out there. And we will stay in touch and continue to talk. But 
I just wanted to make sure that I threw those concerns out 
there.
    Thank you for your time, Madam Chair.
    Ms. Johnson. Thank you very much.
    We have before us today, Mr. Terrance Salt, Acting 
Assistant Secretary of the Army for Civil Works at U.S. Army 
Corps of Engineers, Washington; Lieutenant General Robert L. 
"Van" Van Antwerp, Chief of Engineers, U.S. Army Corps of 
Engineers Washington; Commissioner C.W. "Bill" Ruth, 
International Boundary and Water Commission, U.S. Section, El 
Paso, Texas; and Dr. Howard Frumkin, Director of the National 
Center For Environmental Health Agencies for Toxic Substances 
and Disease Registry, Centers for Disease Control and 
Prevention, Atlanta, Georgia.

 TESTIMONY OF TERRANCE C. SALT, ACTING ASSISTANT SECRETARY OF 
    THE ARMY FOR CIVIL WORKS, U.S. ARMY CORPS OF ENGINEERS, 
   WASHINGTON, D.C.; LIEUTENANT GENERAL ROBERT L. "VAN" VAN 
  ANTWERP, CHIEF OF ENGINEERS, U.S. ARMY CORPS OF ENGINEERS, 
WASHINGTON, D.C.; COMMISSIONER C.W. "BILL" RUTH, INTERNATIONAL 
 BOUNDARY AND WATER COMMISSION, U.S. SECTION, EL PASO, TEXAS; 
     AND DR. HOWARD FRUMKIN, DIRECTOR, NATIONAL CENTER FOR 
 ENVIRONMENTAL HEALTH, AGENCY FOR TOXIC SUBSTANCES AND DISEASE 
REGISTRY, CENTERS FOR DISEASE CONTROL AND PREVENTION, ATLANTA, 
                            GEORGIA

    Ms. Johnson. If you will begin your testimony in the order 
of your being named, I would appreciate it. Thank you for being 
here.
    Mr. Salt. Chairwoman Johnson, Representative Boozman, 
distinguished Members of the Subcommittee, thank you for the 
opportunity to present the President's budget for the civil 
works program of the Army Corps of Engineers for fiscal year 
2010. Developing this budget we have sought to achieve four 
principal objectives:
    First, focus our construction funds on those investments 
that provide the best return from a national perspective in 
achieving economic, environmental, and public safety 
objectives.
    Second, to support the safe and reliable operation and 
maintenance of key existing water resources infrastructure.
    Third, to improve Corps project planning and program 
performance.
    And, finally, to advance aquatic ecosystem restoration 
efforts, including restoration of Louisiana's coastal wetlands 
and Florida's Everglades. And, Congressman Diaz-Balart, clearly 
I need to come and chat with you about that effort.
    The budget provides funding for the development and 
restoration of the Nation's water and related resources within 
the three main civil works program areas: commercial 
navigation, flood and coastal storm damage reduction, and 
aquatic ecosystem restoration. Additionally, the budget 
supports hydropower, recreation, environmental stewardship, 
water supply services at existing water resources projects 
owned or operated by the Corps, protection of the Nation's 
regulated waters and wetlands, the cleanup of sites 
contaminated as a result of the Nation's early efforts to 
develop atomic weapons, and emergency preparedness and 
training.
    The total discretionary funding of $5.1 billion in the 
fiscal year 2010 budget is the highest amount ever requested by 
the President for the civil works program. The budget proposes 
the enactment of legislation to authorize a lock usage fee 
which would over time replace the diesel fuel tax now paid by 
most commercial users of the Inland and Intercoastal Waterways.
    This proposed legislation will address the declining 
balance in the Inland Waterways Trust Fund. This affects the 
government's ability to finance the non-Federal portion of the 
Federal capital investment in these waterways and will do so in 
a way that improves economic efficiency compared to the 
existing fuel tax by more closely aligning the cost of those 
who use the Corps locks for commerce with the capital costs 
that the Corps incurs on their behalf.
    The administration stands ready to work with the Congress 
and stakeholders interested in these capital investments to 
help pass and implement this proposal.
    The fiscal year 2010 budget continues the civil works 
program's commitment to a performance-based approach to 
budgeting. The Army applied objective performance guidelines to 
focus construction funds on those investments within the three 
main mission areas of the Corps to provide the best return from 
a national perspective in achieving economic, environmental, 
and public safety objectives.
    Similarly, the Army used objective performance criteria to 
allocate O&M funds in the fiscal year 2010 budget. The O&M 
criteria consider both the condition of the project and the 
potential consequences for project performance if the O&M 
activity were not undertaken in fiscal year 2010.
    In fiscal year 2010, the Corps will focus efforts on 
developing new strategies, along with other Federal agencies 
and non-Federal project partners, to better manage, protect and 
restore the Nation's water and related land resources, 
including floodplains, flood-prone areas, and related 
ecosystems.
    I would like to speak for a minute about the recently 
enacted American Recovery and Reinvestment Act which provides 
$4.6 billion for the Corps' civil works program. The Corps is 
managing these funds and successfully achieving the Recovery 
Act stated purposes; obligations and expenditures commenced in 
early May on clearance of the Corps' project plans and lists.
    Projects were selected based on the fundamental tenet of 
prudent management and investment in infrastructure and 
ecosystem restoration that will provide long-term benefits for 
the Nation. The civil works allocations are fully consistent 
with the President's direction provided in his executive 
memorandum of 20 March 2009, ensuring responsible spending of 
Recovery Act funds.
    Moreover, the civil works allocations are consistent with 
the additional project selection criteria provided in the 
conference Committee report accompanying the act. The project 
programs or activities that are accomplished with Recovery Act 
dollars will be obligated and executed quickly, will result in 
high immediate employment, have little schedule risk, will be 
executed by contract or direct hire of temporary labor, and 
will complete a project phase, a project, an element, or will 
provide a useful service that does not require additional 
funding.
    Also, as stipulated in the Recovery Act, no funds will be 
used for any project that, at the time of the obligation, has 
not received appropriations provided for energy and water 
development. Essentially, no new starts. The wide geographic 
distribution of projects spreads the employment and other 
economic benefits across the United States.
    Funding also is distributed across the civil works programs 
to provide the nation with project benefits related to inland 
and coastal navigation, the environment, flood-risk management, 
hydropower, recreation and more.
    Since I last appeared before this Committee, I am pleased 
to report that as of close of business June 12th, the Corps has 
obligated more than $320 million. On-the-ground work has begun 
and real progress is being made. This administration has made 
rebuilding America's infrastructure a priority to resources 
provided for the Army's civil works program in the President's 
budget for fiscal year 2010, as well as the resources provided 
to the stimulus bill to work and help achieve this objective.
    Madam Chairwoman, I am proud to support the fiscal year 
2010 budget for the Army civil works program. I look forward to 
working with the Subcommittee and to your support for the 
President's budget proposals. Thank you, ma'am.
    Ms. Johnson. Thank you very much.
    Ms. Johnson. Lieutenant General Van Antwerp.
    General Van Antwerp. That is fine, ma'am. Thank you.
    Chairwoman Johnson, Representative Boozman, distinguished 
Members of the Subcommittee, it is really an honor to testify 
before you on the President's fiscal year 2010 budget.
    I would like to start out just by giving a little bit about 
the civil works program, because it is really an amazing thing 
when you hear it rolled up. We own and operate over 650 dams. 
In navigation, we have 12,000 miles of inland waterways that we 
are responsible for. My folks tell me that would stretch 
halfway around the world if you strung it all together. We have 
241 lock chambers at 195 different sites. We dredged over 204 
million cubic yards. A football field piled high with that 
would be 10 miles high.
    Flood damage reduction: we have 383 reservoirs in the Corps 
of Engineers. We have 11,000 miles of levees, which constitutes 
about 16 percent of the levees in this country. Environmental 
protection, of course, we approved 53,000 permits last year. 
Hydropower, we have 75 sites and 350 generators that generate a 
lot of the hydropower for this Nation. We added 372 million 
visitor days to our projects last year as a backdrop for what 
we do.
    This is a performance-based budget. It completes ten 
projects; four in navigation and six in flood and coastal storm 
damage reduction. A little breakout by percentage, 11 percent 
of this budget is environmental, 35 percent navigation, and 32 
percent is in the flood and coastal storm damage reduction.
    As was mentioned already, it includes three new watershed 
studies. In the construction program, it has 93 construction 
projects and they include 10 dam safety projects, nine projects 
that address significant risk to human safety and eight project 
completions.
    There are 15 mitigation or environmental projects like the 
Everglades, Columbia River, Missouri River Basin, and there are 
five new starts. They were, all five, very high-performing 
projects.
    The operation and maintenance, ma'am, that you acknowledge, 
this is a 14 percent increase. There are a lot of projects out 
there built in the 1940s, 1950s and 1960s that we really need 
to get at.
    Representative Cao, just a little bit on New Orleans. We 
are going to make that 2011 deadline for the hurricane-
reduction system and we are very proud of the incredible work 
that has been done down there.
    There is also 25 million in investigations for coastal 
wetlands this year. We went back to the 1930s, and looked at 
the amount of coastal wetlands in this country. We have lost a 
million acres since 1930. Pretty amazing.
    And I will just close here by talking about Iraq and 
Afghanistan just for a moment, although it is not directly 
under the purview of this Committee. I just want to tell you 
that your Corps of Engineers has had 10,000 civilian members of 
the Corps of Engineers deployed to either Iraq or Afghanistan 
since 9/11 doing phenomenal work over there. We are having a 
little bit of a change in that the workload in Iraq is going 
down. At the same time, we are doubling our workforce in 
Afghanistan. So, very exciting things out there.
    Finally, Mr. Salt did cover the Recovery and Reinvestment 
Act. I will just say that in the 5 weeks that we have had the 
funds available, we have obligated $322 million. And by the end 
of this fiscal year, 30 September, we will have 45 percent of 
that $4.6 billion under contract.
    Ma'am, I look forward to the questions of this 
Subcommittee. Thanks for the privilege of testifying today.
    Ms. Johnson. Thank you very much.
    Ms. Johnson. Commissioner Ruth from El Paso.
    Mr. Ruth. Chairwoman Johnson, Ranking Member Boozman, and 
Members of the Committee, thank you for the opportunity to 
discuss the U.S. Section of the International Boundary and 
Water Commission's fiscal year 2010 budget request and 
priorities.
    The President's fiscal year 2010 budget requests a total of 
$76.25 million for the USIBWC, including $33 million for 
salaries and expenses and $43.25 million for construction. The 
S&E request covers expenses related to salaries and expenses 
and USIBWC's administrative costs, as well as funds needed for 
the continued operation and maintenance of the U.S. portion of 
binational infrastructure and projects along the United States-
Mexico border.
    The President's fiscal year 2010 budget requests $43.25 
million for the construction account. Of this amount, $21.4 
million is requested for flood control rehabilitation efforts 
to continue with upgrades to the aging levees in the USIBWC's 
Rio Grande's flood control projects along the upper and 
international reaches of the Rio Grande. Levee rehabilitation 
is one of HSIBWC's top priorities. These upgrades, which 
include structural improvements and raising the height of 
levees, are needed to provide protection for communities along 
the Rio Grande during a 100-year flood event in accordance with 
criteria established by the Federal Emergency Management Agency 
and to enable certification to FEMA standards, thus alleviating 
the need for border residents to purchase costly flood 
insurance.
    Another one of my top priorities is to complete the South 
Bay International Wastewater Treatment Plant in San Diego, 
California. We have requested $6 million in fiscal year 2010 to 
construct an administration building and laboratory facilities. 
The USIBWC awarded a contract in 2008 for construction of the 
secondary treatment component of this plant, which is currently 
under construction and is scheduled to come on line by the end 
of the calendar year 2010.
    Recent safety of dams inspections have identified seepage 
problems at the two international storage dams on the Rio 
Grande-- Amistad and Falcon. Funding of $5 million is requested 
for the U.S. share of the cost required to conduct further 
binational investigations to determine viable remediation 
options.
    We are requesting funding in fiscal year 2010 for the 
Nogales International Outfall Interceptor, which is a pipe that 
conveys wastewater from Nogales, Sonora, and Nogales, Arizona, 
to the Nogales International Wastewater Treatment Plant. 
Constructed in 1970 and 1971, the 9-mile long pipeline has 
deteriorated over time. The IOI must be repaired or in part 
replaced to avoid adverse environmental impacts and to ensure a 
reliable operation of the wastewater collection and treatment 
system. The fiscal year 2010 request of $750,000 represents 
USIBWC assumed a 50 percent share of the cost for the project's 
design.
    We have requested $3 million to begin reconstruction of the 
American Canal. Located in El Paso, Texas, this 1.5-mile-long, 
concrete-lined canal was built by the United States in 1938 to 
convey Rio Grande waters to U.S. water users. It has 
deteriorated over time and it is at risk of being unable to 
deliver water to U.S. users. In fiscal year 2010, USIBWC 
intends to design the needed improvements and undertake 
environmental remediation measures.
    Our fiscal year 2010 request includes $400,000 for 
reestablishment of approximately 43 acres of riparian habitat 
to mitigate for the environmental impacts of sediment and 
vegetation removal that took place under the Colorado River 
Boundary and Capacity Preservation Project. This project was 
undertaken to restore the flow capacity of the Colorado River 
Channel at Morelos Dam. Funds in the amount of $4.4 million are 
requested for facilities renovation and heavy equipment 
replacement programs.
    We are also requesting $2.3 million to improve security at 
our facilities in a post-September 11th world. This fund will 
fund measures to address security and vulnerability risks at 
critical transboundary infrastructure, such as Falcon and 
Amistad Dams, our field offices, and headquarters facilities.
    Madam Chairwoman, thank you for the opportunity to testify 
today, and I would be pleased to respond to any questions you 
or other Members of the Committee may have. Thank you.
    Ms. Johnson. Thank you very much.
    Ms. Johnson. Dr. Frumkin.
    Dr. Frumkin. Good afternoon, Madam Chairwoman Johnson, 
Ranking Member Boozman, other distinguished Members of the 
Committee. On behalf of the new Director of the Centers for 
Disease Control and Prevention and the Administrator of the 
Agency for Toxic Substances and Disease Registry, Dr. Thomas 
Frieden, I would like to thank you for the opportunity to 
testify today.
    I would like to give you a brief overview of ATSDR's 
scientific and programmatic activities and then discuss ways in 
which ATSDR is taking a fresh look at how we can serve 
communities concerned about toxic exposures. ATSDR, as you 
know, is the principal Federal nonregulatory public health 
agency charged with protecting the public from toxic exposures. 
The Agency was formed about a quarter century ago under the 
Superfund Act, or CERCLA, and was assigned by Congress with 
four principal responsibilities:
    The first is protecting the public from toxic exposures. We 
do that by assessing exposures at hazardous waste sites and 
making recommendations for protecting health; by assessing 
other kinds of chemical releases such as contaminated schools 
or smokestack emissions and, again, making recommendations for 
protecting public health; and responding to emergency releases 
such as the coal ash spill in Tennessee that you mentioned 
earlier, Madam Chairwoman, and, again, making recommendations 
for protecting public health. Much of that direct protective 
work is done in collaboration with State agencies whom we fund 
and support.
    Our second major responsibility is building the science 
base on toxic chemicals. We carry out that mission through 
intramural research in toxicology and epidemiology, through a 
small program of funded extramural research, and through 
assembling the results of other people's research into 
authoritative documents such as this Toxicological Profile.
    Our third major responsibility is educating the public and 
health-care providers about the effects of hazardous chemical 
exposures. Congress recommended that both the public and 
health-care providers needed to know more and charged us with 
that job. We carry out public educational activities, we 
produce user-friendly fact sheets such as this, and produce 
educational materials for physicians, nurses, and other health-
care providers.
    Our final responsibility is conducting registries. We 
register groups of people who have been exposed to a particular 
substance, such as at the World Trade Center or in Libby, 
Montana, and follow them over time both to communicate with 
them subsequently and as a platform for research.
    We have been very successful in our quarter century of 
existence. We have addressed a large number of hazardous waste 
sites. We have established the concept of community service in 
environmental health. We have advanced environmental justice 
considerations. We have advanced science in many ways. And we 
have carried out many educational activities.
    But this is a time for reevaluation, and that is very high 
on our agenda for the coming year. We are a shrinking Agency. 
When I began my service almost 4 years ago, we had roughly 400 
on-board staff. We now have fewer than 300, requiring that we 
do our job better with less.
    Circumstances are changing. As you mentioned, Madam 
Chairwoman, we now recognize new chemicals that are emerging, 
new pathways of exposure, and health outcomes not fully 
appreciated 25 years ago. The science has advanced in many 
ways, toxicologically and in terms of biomonitoring. We have 
undergone public and congressional scrutiny over the last year 
and that has called on us to take a hard look at the way we do 
our work. And we have a culture of continuous quality 
improvement that would call on us in any event to do those 
things.
    During this past year, we have undertaken a management 
review of our management procedures and we have identified a 
number of opportunities for improvement and have made those. We 
have undertaken an external review of our science 
administration-- our clearance and production of science 
documents and have improved those. But perhaps most important 
is the National Conversation on Public Health And Chemical 
Exposures to which you referred earlier. This is a 1- to 2-year 
process, about to be launched next week, after about a year of 
preparation in which we will convene agencies from across the 
Federal Government and at the State and local level with a 
number of other stakeholders nationally. Environmental groups, 
community groups, industries, public health groups and others 
will take a hard look across the entire system that we have set 
up nationally to protect the public from toxic chemicals.
    We believe there are major opportunities for collaboration 
among agencies to avoid redundancies, to fill gaps and, in 
general, to perform more effectively and more efficiently at 
protecting the public from hazardous chemicals. We have several 
hundred people registered for a launch next week, and we are 
very much looking forward to performing that analysis with 
stakeholders; to generating practical, actionable 
recommendations, and to implementing those over coming years to 
improve our national approach to protecting the public.
    Thank you very much for the opportunity to be here. I look 
forward to answering any questions.
    Ms. Johnson. Thank you so very much.
    Ms. Johnson. I am going to call on Mr. Filner to start 
first on the questioning.
    Mr. Filner. Thank you, Madam Chairman. And thank you for 
your questions about the situation in San Diego and Tijuana. 
Mr. Ruth did not answer them, but maybe we will get him to 
answer.
    By the way, General Van Antwerp, I somehow would not use 
the word "exciting" to talk about Afghanistan. It is a sad 
situation. We are losing young men and women. I don't find that 
exciting. Try another word.
    Just for my colleagues' quick rundown, I represent the 
whole California-Mexico border. We have two major cities across 
my district: Tijuana with several million people, Mexicali with 
about a million. Each one has less than half of the facilities 
necessary to treat sewage. Raw sewage gets dumped into gullies 
and canyons and comes over in what are generally referred to as 
the two most polluted rivers in America, the Tijuana River and 
the New River. I am not happy to say I am probably the only 
Congressman in America that says 60 million gallons or so of 
raw sewage flows across my district. So we are very dependent 
on the work of the IBWC.
    Unfortunately, what I just said about raw sewage flowing 
through my district, I said 10 years ago and 20 years ago. We 
haven't done the job.
    Madam Chairman, you said we were off to a new start with 
the new administration. I wish I was excited. I read Mr. Ruth's 
testimony and it is just not accurate. It said, for example, 
that in 1997 when you started the waste treatment plant, you 
said in the interest of addressing public health and 
environmental concerns as expeditiously as possible, the USIBWC 
and the EPA decided to construct the South Bay plant; decided 
to construct the South Bay plant in stages. Build the primary 
treatment--advanced, primary and then the secondary.
    Look, you ran out of money because you underestimated what 
it would do, and you didn't meet the law. So we didn't do the 
secondary treatment. Now you intend, you say, to deal with it 
after 10 years or so. And as I read your testimony, you are 
saying that the new secondary plant--which I don't know how you 
are doing for 6 million, because it was estimated for another 
100 or something--would treat 25 million gallons per day; is 
that correct?
    Mr. Ruth. That is correct.
    Mr. Filner. Mr. Ruth, you know as well as I do--you have 
worked on this back to eternity--25 million gallons per day was 
what it was when we started building the thing 10 years ago or 
12 years ago. It is now double that and it is projected for 
even more. So when you finish your secondary treatment plant, 
we are going to be right back where we were in 1997, right? It 
will still have 50 million gallons of extra raw sewage that is 
untreated and flows across and into the Pacific ocean?
    Mr. Ruth. I can speak to that point.
    Mr. Filner. Madam Chairman asked--we passed two laws signed 
by two different Presidents that said don't do this; do a 
treatment plant that would treat the whole capacity in Tijuana, 
and that we would do it, and the IBWC ignored two laws of 
Congress.
    Do you want to answer why we didn't do that?
    Mr. Ruth. Well, unfortunately, sir, I wasn't here for 10 
years of those discussions. I was here for the period prior to 
that when the decision was made.
    Mr. Filner. You were appointed last year?
    Mr. Ruth. Yes, sir.
    Mr. Filner. For what length of time?
    Mr. Ruth. For the end of the year.
    Mr. Filner. Until the end of 2008?
    Mr. Ruth. Yes, until the present administration makes a 
decision for----
    Mr. Filner. So you are really not there.
    Mr. Ruth. I can assure you I am there.
    Mr. Filner. But your appointment only lasts until the 
President appoints a new one.
    Mr. Ruth. That is correct, until----
    Mr. Filner. I am sorry. My time is quick. But why didn't we 
do what we said in those two laws that were passed by Congress?
    Mr. Ruth. The original plant was constructed to an advance 
primary plant and the decision was made in the early 1990s to 
do that. The plant was constructed and put into operation in 
1997. Unfortunately at that time, there was no money to take it 
to secondary.
    Mr. Filner. It was meant to be secondary.
    Mr. Ruth. It was meant to be a secondary.
    Mr. Filner. It wasn't planned to be a primary? It was 
planned to be a secondary.
    Mr. Ruth. It was planned to be a secondary treatment 
facility. And the moneys that were available were only enough 
money to build the advanced primary portion of that plant. Then 
over the next 10 years, the decision was made to construct and 
finish out the plant as it was originally intended, for 25 
million gallons per day. And that is what is being done now. 
That contract was let in November of this year and it is 
scheduled to be completed by the end of 2010.
    Mr. Filner. What about the additional 25 million gallons of 
water that we can't treat of sewage?
    Mr. Ruth. I just got a report from Mexico, just dated this 
month, June of 2009, Mexico's intention is--and they are 
constructing two treatment plants in Mexico. One was just 
commissioned this last week. The other is scheduled to be put 
on line by the end of this year. And they laid out their 
infrastructure in Tijuana to utilize those plants and to 
utilize that water for reuse, and they showed a very detailed 
report of what their intentions----
    Mr. Filner. For how much? How much capacity?
    Mr. Ruth. The capacity of those plants were each about 7.5 
million each, and they can be increased in size. They can 
double that size. They are moduled to where they can go to the 
25 million. Their intentions are that they will reuse all of 
the water that Tijuana is generating and that they do not 
intend to send any additional water to the United States. This 
was a statement made by SES this past week.
    We have been working very closely with Mexico through our 
Mexican section of the International Boundary and Water 
Commission and they have made improvements at the San Antonio 
de los Buenos plant or Punta Banderas as they refer to it. So 
the combination of the new plant----
    Mr. Filner. You should go down there again. Half the sewage 
is not even treated and ends up in San Diego. But I know my 
time is up, Madam Chair.
    We have a long talk, Mr. Ruth, to--you are simply wrong 
about the history of the last 10 years, because it doesn't take 
into account the two pieces of legislation we have passed. And 
I haven't heard anything about the New River anyway. So we have 
a lot of stuff to talk about.
    Mr. Ruth. I will be glad to speak with you any time.
    Mr. Filner. Thank you. Thank you, Madam Chair.
    Ms. Johnson. Thank you very much. Mr. Boozman.
    Mr. Boozman. Thank you. First of all, I would like to say 
that I think that the work that the Corps is doing in 
Afghanistan is exciting and very commendable. And I say that, 
and I think my colleague will agree, in the sense that 
rebuilding the infrastructure, helping the Afghanis with those 
kind of problems--which is what the Corps is engaged in and 
what you are talking about--again, I think that is very 
commendable and I think it is very exciting and I think it will 
help us working with our NATO allies with the outcome.
    Mr. Salt, in looking at the budget, I see a lot of numbers 
and things, and yet I only can gauge it by what is happening 
with some of the events that I know about. And as you know, the 
Ozark Dam on the Arkansas River is a project that is located--
happens to be located in my congressional district. But besides 
that, it is a project where we have appropriated a lot of 
money. The project is almost two-thirds done. The construction 
is such that the thing is all torn up, and now it appears in 
the President's budget that we are just walking away from it.
    In the figures I have seen, the government spent $40-plus 
million. It is a public-private partnership. The ratepayers of 
Arkansas through their utility have spent $20 million. How much 
more money will it cost to walk away from the project if we do 
away with the current contract?
    Mr. Salt. Sir, I understand--I think you are asking me what 
the termination costs of the current contract are--I believe 20 
million dollars is the estimate.
    Mr. Boozman. So we are spending $80 million again with the 
thing two-thirds complete. The ratepayers of Arkansas that have 
come up with $20 million, will they be reimbursed for the money 
they have spent?
    Mr. Salt. Sir, I am not sure I know the answer to that. I 
am assuming the answer is no. I am assuming that the answer is 
that the protocols that are set up for that are that they would 
not be reimbursed.
    Mr. Boozman. What sense does it make to start a project 
with all that is involved in getting this type of project done, 
a huge commitment of money--at that time everybody agreed that 
the project was worthwhile. The cost ratio was figured, and now 
I am being told that the cost ratio is being refigured, and it 
is a lower rate. What common sense can you use when you have 
spent that amount of money to redo your cost ratio in the 
middle of the stream?
    The other thing is electricity rates are going up now as we 
speak, as well as energy is going up. I mean, again, can you 
explain that to me?
    Mr. Salt. I am not exactly sure of the question. I think--
if the question----
    Mr. Boozman. How can you refigure the cost ratio when you 
have got a project that is two-thirds done, and then decide 
that it is not a worthy project?
    Mr. Salt. Sir, I wasn't aware that we redid the cost ratio. 
I can check on that.
    Mr. Boozman. How can you decide when it is two-thirds done 
that it wasn't a worthy project to begin with?
    Mr. Salt. I think as we put this budget together, one of 
the factors were that we would focus on the higher performing 
projects so that we would be able to free up money to have new 
starts for some of the even higher performing projects.
    Mr. Boozman. But it doesn't make any difference that the 
project is two-thirds complete when you decide to shut it down? 
How much--can you find out how much electricity--again this is 
hydropower. This is what we are trying to do in this country as 
far as greening up things, good project. Right now it is all 
torn apart. Can you tell me how much hydropower was generated 
before, how much hydropower is generated now, and then how much 
will be as we walk away?
    Mr. Salt. Sir, I don't have those numbers in my head. I 
have them in a book here. I can----
    Mr. Boozman. We are going to have--my understanding is is 
these turbines have been ordered, this $60-plus million worth 
of stuff is going to be delivered, and much of that is going to 
be out on the street adjacent to this structure, just kind of 
out there. I mean, is that correct? What are we going to do 
with the stuff that we have ordered?
    Mr. Salt. Sir, we are looking at a number of options to 
pursue that, one of which is--just by way of a little bit of a 
background on this as we put our Recovery Act list together, 
our assumption was that this was a likely candidate for the 
budget. So it was not one of the projects we considered when we 
put the Recovery Act list together. When the final policy 
decisions were made with respect to the budget, it was a 
performance matter, for the performance of our ongoing 
construction projects, and this project fell below the line. So 
we are now in the--I am in the----
    Mr. Boozman. What is the remaining benefit to the remaining 
cost ratio of the project?
    Mr. Salt. The remaining benefit to cost ratio is higher 
than the total benefit to cost ratio.
    Mr. Boozman. Are there projects with lower ratios that are 
being funded in the President's budget?
    Mr. Salt. Sir, I believe the only exception would be 
projects that would be funded to complete; that we added--that 
we allowed those to complete. I think this is the only project 
that fell into this category, and as I indicated, were--as we 
look at our opportunities and the rethinking of the Recovery 
Act funds, obviously this one is higher than----
    Mr. Boozman. I don't mean to interrupt. I am sorry, but we 
have got to move on in fairness. I would just say this. You 
guys do a lot of good work. I would hate for this to be the 
poster child of what is going on with the OMB budget, with you 
guys, and with the Recovery Act. I yield back.
    Ms. Johnson. Thank you. Mr. Hare.
    Mr. Hare. Thank you, Madam Chair. This is really directed 
to Mr. Salt and General Van Antwerp. My district has--I am from 
Central Illinois--247 miles of the Mississippi River and seven 
locks and dams. I toured the Quincy Lock and the lockmaster had 
me hit the lock with my fist, and a piece of concrete about the 
size of a football came off. And literally some of these locks, 
they are using duct tape to keep these things together.
    Mr. Hare. First of all, we have a huge problem, I mean, if 
these locks fail. The second problem is, just from the corn 
growers and the producers lose the 6 days with having to break 
the tows down.
    But, you know, most importantly, say, if Quincy wants to 
use hydroelectric off of it for the things, the frustrating 
part is, you know, there is no money to fix these, to replace 
them. And I think it is critical, you know, not just for my 
district but just for people in general.
    So my question is this to you. I understand that 50 percent 
of the funds that are needed to repair the locks or modernize 
these structures come from the Inland Waterways Trust Fund, 
which is broke or nearly broke, and it is due the diesel tax, 
which hasn't been indexed for inflation in decades.
    You folks could help me out a lot here if you could tell 
me, from your perspective, what do we need to do to be able to 
come up with the money. Because, as was mentioned earlier by 
Mr. Boozman, the estimated number of jobs created or that would 
be used if these locks were repaired would be 28,000 
construction jobs. When you think about that, that is a 
tremendous number of people being able to go back to work and 
help their families out.
    If you could help me out here with some suggestions on how 
we can come up with--I know it is tremendously expensive to 
replace these. My fear, though, is these locks are going to 
fail, maybe, and then what are we going to do?
    If, literally, they are being held together with duct 
tape--and I don't mean totally, I don't mean to put it that 
way, but literally you see how they are falling apart--and all 
it takes is a couple tows to hit one of these things hard 
enough and we have a real severe problem here, what can we do, 
from your perspective, to be able to come up with the necessary 
funding, whether we change this mechanism or what do we need to 
do so that, one, we can replace these locks or repair them, get 
people back to work, and give our producers who have a--as I 
said, Brazil has a 6-day advantage on a trade deal just by 
having to break these things apart.
    So, you know, I am just really looking for suggestions from 
you on how we can do this and how we can get started on the 
road to being able to being able to fund this program. We 
passed it, the President vetoed it, we overrode the veto. And 
here we have a tremendous opportunity, but we don't have any 
money.
    So I know that might be a question that maybe doesn't have 
an answer, but I certainly would be open to any suggestions you 
have in terms of how do we get this thing moving.
    Mr. Salt. As I mentioned in my oral statement, the 
administration has put forward a proposal to restructure the 
user fees for the Inland Waterway Trust Fund. And, as I said, 
we are certainly willing to work with the Congress to try and 
work on that part of it.
    I think, sir, you are bringing up a huge issue not just 
with the inland waterways infrastructure, but the whole issue 
of aging infrastructure throughout the country. I think you are 
right; it is a large problem. I look forward to working with 
the Committee as we try and think about how we deal with those 
important issues, not only for the inland waterways, but for 
the water resource infrastructure throughout the country.
    Our various flood protection levees and dams are not in 
great shape and, by default, we are ending up dealing with them 
all as dam safety issues, which is not the most cost-effective 
or best policy way to deal with that.
    So I think we in the administration understand this is an 
enormous issue that you have raised, and it is one that we owe 
our best thinking. And we look forward to working with you and 
the Committee as we try and do that.
    Mr. Hare. Sir?
    General Van Antwerp. Sir, we are meeting with the industry 
and with the users right now. And we have some levels. We think 
right now it is $86 million, which when you put the 50-50 and 
you get double that. But it really needs to be about 250 
doubled to about 500 to get at what you are talking about.
    We know the condition of our lock chambers, and you saw the 
condition as well. That is what it is going to take. A number 
of our people are meeting with industry. We have a proposal 
here, but we need to find a way and do it pretty soon, as you 
recognize.
    I think something good could come out of this meeting with 
industry, because of an unscheduled outage. And that is what 
you are talking about. A scheduled one they can deal with, they 
can work around it. But an unscheduled one, that is what really 
kills the industry.
    Mr. Hare. I know my time is up, but I just wanted to put a 
plug in for Colonel Sinkler, who I know is down in Louisiana 
now. He is a wonderful man, and we miss him terribly from our 
area. But he worked on the floods and a number of things.
    And, you know, from my perspective, I have had an 
opportunity to work with the Corps, not just in this position, 
but when I worked for a Member for 24 years. And I thank you 
for all the work that you do do. I think the problem has been 
we just haven't given you the resources that you need to be 
able to do the things that you really do.
    But I appreciate what the Corps does. And anything that we 
can do to get these things fixed and rebuilt them, you know, I 
would be happy to help you in any way I can.
    Thank you, Madam Chair.
    Ms. Johnson. Thank you very much.
    Mr. Cao?
    Mr. Cao. Thank you, Madam Chair.
    And, General, I also commend the Corps' work in Afghanistan 
but especially the work of the Corps in Louisiana.
    In your testimony, you stated that the Army Corps dredges 
annually 204 million cubic yards along the 12,000 miles of 
inland waterways. Of that 204 million cubic yards, according to 
The Times-Picayune, 63 million tons come from the Louisiana 
coast, coastal areas. But of that 64 million tons, the Army 
Corps only uses 12 percent to rebuild Louisiana marshlands.
    My question to you is, what plans do you have to more 
efficiently use the dredge material to restore Louisiana coast 
lands, especially from fundings under the fiscal year 2009 
omnibus appropriation and the stimulus bill?
    General Van Antwerp. Well, Congressman, that is a great 
question. There are a lot of uses for this dredge material. And 
some of the limitations are based on the cost of disposal, some 
of it is on the cleanliness of the material and other things.
    We in the administration are taking a close look at how we 
can beneficially use these materials, because they are a 
benefit if you want to replenish a marsh area or a wetlands.
    We are taking that under advisement. We have heard you here 
today. We agree that we really need to look at this and make 
sure, as much as possible, we are using this material where it 
helps to reduce storm damage, where it can also replenish some 
of the marshes and wetlands.
    Mr. Cao. Do you have an estimate with respect to how much 
it would cost to use more efficiently the amount of dredge 
material that you dredge from the waterways?
    General Van Antwerp. Well, we know what it costs us to 
dispose today.
    There is open ocean dredging, open ocean disposals, which 
is usually the least expensive way to dispose of it. But I 
think we are at the point now, because of the vulnerability of 
our coastlines, we really have to look at other options. We are 
looking at this in a broad policy arena to see what is the best 
way to do it.
    And I defer to Mr. Salt here to take on the policy part.
    Mr. Salt. Sir, currently, the national guidance for the 
Corps is that they look at projects, like dredging projects, on 
the economic merits. So when you look at the benefits of a 
beneficial use, it is not always economic. The way the program 
is being implemented ends up with not a very effective way, as 
you are pointing out.
    We are committed to relook at those policies so that we can 
properly account for the environmental benefits in those kinds 
of projects and not penalize projects such as you are referring 
to that would allow for the beneficial use of those materials 
and greatly increase that type of activity.
    Mr. Cao. And I have one more question in connection with 
the Corps, and I would ask for a very brief answer.
    Can you describe the Corps' approach to analyzing how the 
coastal ecosystem will be affected by the hurricane protection 
alternatives evaluated in the LACPR report?
    General Van Antwerp. The LACPR report is looking at 
everything from barrier islands to creating wetlands to things 
that are nonstructural, like relocations. I think that there is 
great possibility of some solutions in there that will provide 
more, what I call, risk reduction of the coastline in 
Louisiana.
    In addition, some things like the structural part on the 
Lake Borgne surge protection barrier is going to provide 
tremendous amount of risk reduction to the people, as it really 
blocks, virtually blocks, what is coming in the inland waterway 
there.
    Mr. Cao. Thank you, General.
    And my last question is to Dr. Frumkin. What plans to do 
you have in place to evaluate and protect the health of 
African-American communities? And I have in mind a very 
polluted area in New Orleans that is called Gert Town in New 
Orleans.
    Dr. Frumkin. We use the same tools in our toolbox for 
African-American communities that we do for all the communities 
we serve. We have a great deal of experience with minority and 
poor communities, because, unfortunately, hazardous waste sites 
are disproportionately located near such communities.
    Close collaboration with the community, good communication, 
using staff who are well-trained and experienced in careful 
communication; careful assessment of the health hazards not 
only posed by toxic exposures but by other threats that the 
community may face, be they lack of access to medical care, 
underlying medical conditions, and so on; and then generating 
recommendations that are actionable by the authorities 
responsible for acting on them. That could be the State health 
department, local health department, and others.
    So the combination of community involvement, of careful, 
comprehensive, science-based evaluation of health hazards and 
generation of useful recommendations would be our standard 
approach.
    Mr. Cao. Thank you very much.
    Thank you, Madam Chair.
    Ms. Johnson. Thank you very much.
    Mr. Bishop?
    Mr. Bishop. Thank you, Madam Chair.
    And thank you to our witnesses.
    I represent eastern Long Island, about the last 70 miles of 
Long Island, so I have about 300 miles of coastline in my 
district. And our office works quite closely and quite 
cooperatively with the New York District of the Army Corps. And 
I want to commend them, and particularly Colonel Tortora, for 
the service that they provide both to our district and to our 
constituents.
    I am concerned about what appears to be the continuation of 
a policy of the prior administration on the part of this 
administration with respect to beach nourishment. We know that 
beach nourishment projects that were shovel-ready were taken 
out of the eligibility list for funding under the stimulus 
bill.
    And so my question to you, Mr. Salt, is very simply, what 
is the policy of this administration with respect to a Federal 
role in beach nourishment projects?
    Mr. Salt. Sir, you are correct that the policy call was not 
to fund those projects in the Recovery Act. But in the 
President's budget, beach nourishment and renourishment 
projects with a benefit-cost ratio of 2.5 or greater were 
included in the budget, to include the Fire Island Inlet to 
Montauk Point section of New York.
    Mr. Bishop. If I may, I don't wish to be argumentative, but 
isn't the majority of the funding in the President's budget for 
the Fire Island to Montauk Point reformulation, isn't that the 
court-ordered, west of Shinnecock project, the Westhampton 
Beach, the Westhampton Dunes project, which has an ongoing 
several-million-dollar-a-year, court-ordered requirement for 
beach nourishment?
    Mr. Salt. Sir, I don't know about that part.
    Mr. Bishop. I think I am right, sir.
    Mr. Salt. But I would just say it was included in the 
budget because of the storm damage reduction benefits that it 
provided.
    Mr. Bishop. Again, I will say I think, if the $5.8 million 
that is in the budget for Fire Island to Montauk Point, I 
believe that the lion's share of that is pursuant to a court 
order. So it is nondiscretionary on the part of the 
administration and on the part of the Army Corps.
    So I guess my question is, should we rely more, in terms of 
where the administration is going with respect to this policy, 
on the exclusion of the beach nourishment projects from the 
stimulus funding, shovel-ready projects, or should we rely more 
on what you say is implicit in the President's budget for 
fiscal 2010?
    Mr. Salt. Sir, I believe this is the first time an 
executive branch proposal for beach renourishment is in a 
budget in many years. I think it has been a fairly longstanding 
executive branch policy not to propose beach renourishment. 
This is first time that we have done that. And the basis for 
the budget decisions were the storm damage protection that 
these projects provided.
    Mr. Bishop. I am in full agreement that the storm damage 
protection that these projects provide ought to be a very high 
priority. But if you are citing the $5.8 million for the west 
of Shinnecock and the Westhampton Dunes project as evidence of 
the administration's commitment to funding beach nourishment 
projects, I would suggest that that is not the best evidence we 
could have because that is a court-ordered process.
    And so, again, I will say, absent the court-ordered mandate 
that the administration fund that project, is there any other 
reason for us to believe that this administration's policy with 
respect to beach nourishment is different from the prior 
administration's?
    Mr. Salt. Sir, I would say that all of the beach 
nourishment and renourishment projects in the budget are 
evidence of the policy that I am describing.
    Mr. Bishop. Okay. If that is the case, then, can you tell 
us why the policy decision was made to exclude the shovel-ready 
beach nourishment projects from the stimulus bill?
    Mr. Salt. I think the best I could do on that is that the 
policy was under discussion during those times. As we worked 
through that, there were proposals that would include them, and 
then we ended up not including them in the final 
recommendation. They were included in the budget, but not in 
the Recovery Act.
    Mr. Bishop. Okay. But, again--I am sorry, Lieutenant 
General, did you want to respond?
    General Van Antwerp. Congressman, I was just going to say--
my folks handed me a list--there are seven other projects that 
are beach renourishment in the fiscal year 2010 budget.
    Mr. Bishop. That is very welcome news. And I am glad to 
hear that the administration recognizes that these are projects 
that must go forward in terms of habitat protection, in terms 
of shoreline protection, and in terms of storm damage 
mitigation.
    Thank you all very much.
    And, Madam Chair, I have exceeded my time. Thank you.
    Ms. Johnson. Thank you very much.
    Mr. Brown?
    Mr. Brown. Thank you, Madam Chair.
    And thank you, gentlemen, for your testimony today.
    Secretary Salt, if I can begin with you, the administration 
likes to talk up its commitment to the infrastructure, yet the 
budget request before us continues to underfund the Corps.
    When is the administration going to come to Congress with a 
proposal to utilize the Harbor Maintenance Trust Fund to do 
what it was intended to do, to dredge our ports?
    Mr. Salt. Sir, I am not sure how to answer that. I think, 
as in the case of all the others, we try to look at the needs 
and to put together the budget proposals to fund the highest-
priority needs in a way that would allow us to fund those 
highest-priority needs and include new starts, new construction 
projects within our available funds.
    Mr. Brown. Are you familiar with the Port of Georgetown in 
South Carolina?
    Mr. Salt. Sir, I am not--I think General Van Antwerp----
    General Van Antwerp. Yes, sir.
    Mr. Brown. I mentioned in my opening statement the problem 
we have to obtain funding to continue to operate that port. I 
noticed in the President's request that he requested $795,000. 
You know, you can't bring a rig in there to start dredging for 
that much. And so that is almost, I guess, a figure that 
doesn't mean anything, if we are not going to be able to 
utilize any dredging. In fact, I think the need is something 
like $11,300,000. So--when I said $795,000, I was on the wrong 
line. It was $250,000 that they recommended for dredging.
    Tell me how we are going to be able to keep that harbor 
open.
    General Van Antwerp. Sir, we have a couple issues.
    One is that in fiscal year 2008 there was a million dollars 
appropriated for construction, but no cost-sharing partner was 
available. So, in accordance with the fiscal year 2009 
appropriations, we are going to revoke those funds.
    Now, if asked to look at our O&M budget in its entirety and 
see if there are other available funds, we will do that. We 
understand the criticality of Georgetown Harbor, I assure you 
of that.
    Mr. Brown. But I know it is one of those harbors, like we 
mentioned I guess the other 700 or whatever around the country, 
that probably doesn't have the ton miles like the Mississippi 
River does to maintain the dredging, but it is one of those 
catch-cans. If you don't dredge it, the boats won't come. 
Right? And if you don't have the tonnage, then you can't afford 
the dredging. So this is a major concern.
    I guess it leads me up to the next question, and you might 
answer this one, Secretary. Your budget request contains a low 
commercial use navigation pilot project. Can you go into more 
details about this proposal?
    What will you use the $1.5 million requested for this 
project to do? And so, is it the intent to turn the operation 
and maintenance account into a cost-sharing account like the 
construction account?
    That is a lot of questions in one.
    General Van Antwerp. They are all good questions, too.
    The pilot program is really to look at all the harbors 
together in a more comprehensive way, to analyze, where do the 
ships come from? What is needed? Because if you have one harbor 
that has the depth but the others do not and can't get in 
there... the pilot is really to look at it as a system. And I 
think it will reveal where the dredging absolutely has to be 
done-- it is kind of equalizing the whole system.
    Mr. Brown. So that the cost share is not down the road, you 
don't think?
    General Van Antwerp. Not for the study. We will look at it 
as the dredging goes. Now, if it takes Inland Waterway Trust 
Fund dollars, that is back to the problem we were discussing 
earlier on the amount of funds that are in that fund.
    Mr. Brown. I represent most of the coast of South Carolina, 
and of course the Intercoastal Waterway is a big part of my 
district too. So my question would be that--and we appreciate 
this. The stimulus funding spent on the Intercoastal Waterway 
is much appreciated. We are grateful for that.
    However, the budget request continues the recent history of 
providing the project with little more than caretaker dollars. 
Does the Corps have an investment strategy for the AIWW, or 
will budgets continue to do little more than mosquito abatement 
along what could be a marine highway for the entire East Coast?
    And I might add to that, I mentioned a little bit in my 
opening statement--and my time has just expired. But we have 
to, in order to get funding to make it workable, we have to get 
earmarks. And you know the bad word there. And so, maybe could 
you help us on that.
    Madam Chair, if I could just have another 30 seconds?
    Ms. Johnson. Thank you very much.
    Mrs. Napolitano?
    Mrs. Napolitano. Thank you, Madam Chair, and to both Mr. 
Salt and to General Van Antwerp.
    I am from southern California, and the Corps owns and 
operates the Whittier Narrows Dam in my district, which is San 
Gabriel River, on the rivers. The Los Angeles County Public 
Works, the Southern California Water Replenishment, and my 
office have been working with your offices in Los Angeles to 
update a study for a feasibility for raising two to three feet 
the conservation pool, costing about $300,000.
    It is only an update of a study which would allow the 
courts to increase the water level in the conservation pool, 
thereby capturing additional storm water for up to 2,200 
households each year. If the study is not completed, not done, 
we will continue to lose to that water to the ocean. Of course, 
as you well know, we are suffering from extreme droughts in 
southern California, so we would be losing those acre feet.
    The study has been held up by the National Dam Safety 
Review process. Although the court has found no structural 
problems with the dam, we continue to find stalling, if you 
will. I would request that you look into the situation and see 
if we can't get that dam feasibility study completed to 
increase that water storage capability.
    Then the other question would be regarding reuse, 
recycling, and desalination, all critical to southern 
California. And to both of you, again, southern California has 
been adapting for decades now to the shortage of our 
traditional water resources by tapping into more of our 
groundwater and alternative water sources.
    Could you tell me what role the Corps is playing, will be 
playing in supporting the recycle, reuse, desal, and other 
alternative water supply projects to assist in being able to 
prepare for the continuance of the drought cycle?
    General Van Antwerp. Well, ma'am, let me talk first about 
the Whittier issue.
    I think the feasibility study did recommend increasing the 
existing water conservation pool. We owe you a further answer 
as to where we are headed and how we might move this along.
    Mrs. Napolitano. And I still am waiting for an answer.
    General Van Antwerp. Right. Right. I understand.
    On the other part, a lot of the water that is drawn off and 
used by municipalities is actually replaced back into the 
watercourse. We have a number of actions to see how we can 
maximize the use of that. Now, some of it goes for irrigation 
and other things, but a lot of the water, after it is run 
through the treatment plants, is put back into the 
watercourses.
    Mrs. Napolitano. Replenishment.
    General Van Antwerp. Replenishment.
    We are not doing a lot, to my knowledge, with 
desalinization. I think it has possibilities for the future 
though.
    Mrs. Napolitano. Are you also checking out the fourth 
treatment that is leaving that recycled water cleaner?
    And to that point, I would like to ask also, not only you, 
but Mr. Frumkin, in regard to the meds found in recycled water, 
what is happening to be able to ensure that people with, say, 
lower immune systems are not affected, whether it is the 
children or elderly?
    It goes to the subject of the fourth treatment, which 
supposedly now does clean it to a greater extent to where it 
not only can be used for commercial and industrial ag uses, but 
melding very easily with virgin water.
    Gentlemen?
    Dr. Frumkin. We understand the need to balance conservation 
of water with protection of the users of the water, maintaining 
the safety and health standards in the water.
    I can't speak specifically to the projects in southern 
California that you referenced. But other parts of our agency 
are very much engaged with the issue of water safety and 
reconciling those health and safety needs with conservation 
needs. I would be happy to provide you with further 
information, if you would like.
    Mrs. Napolitano. Do you have any findings that would 
indicate whether or not this is adequately addressing the issue 
of removing those contaminants?
    Dr. Frumkin. Not that I am aware of. That doesn't mean we 
haven't, but I just don't know them as I sit here. So I will 
have to get back to you.
    Mrs. Napolitano. I would appreciate it. That is a great 
issue for us, and I would love to maybe have an opportunity to 
dialogue with you separately, because those are things that are 
critical to our area.
    There was another question. This one is to Mr. Ruth.
    I was born and raised in Texas, so I am very much involved 
and concerned about the Rio Grande and the fact that, years 
ago, one of the states in Mexico withheld the water from the 
dam, from the Rio Grande, because there was a drought. And so, 
according to the compact that was made on not only the Rio 
Grande but also the canal--well, the Rio Grande and then the 
Colorado River water going into Mexico.
    Ms. Johnson. The time has expired. We are looking forward 
to multiple votes in about 10 minutes.
    Mrs. Napolitano. I will put it in writing.
    Ms. Johnson. Thank you.
    Mr. Olson?
    Mr. Olson. Thank you very much, Madam Chairwoman.
    And before I get started with the questions, thank you all 
for coming and giving us your testimony today. But I would like 
to identify myself with the comments of our Ranking Member, Mr. 
Boozman, our freshman colleague, Anh Cao. And thank you, 
General and all the soldiers--and I see a sailor over there--
for your service here in our country and overseas, Iraq and 
Afghanistan. We couldn't have had the success we have had in 
those nations without the engineers. And our Army Corps of 
Engineers, our Navy Seabees, and our Air Force Red Horse are 
doing an extremely fantastic job over there. And I just wanted 
to make sure you know that we appreciate what you have done.
    I represent the 22nd District of Texas, which is southeast/
southwest Houston. So the Port of Houston and Houston Ship 
Channel is very important to my district. And during the last 5 
years, the Federal appropriations have been below the amounts 
that the Corps itself has estimated they need for the 
construction and operations and maintenance accounts of the 
Houston Ship Channel.
    The construction account went down from 100 percent of what 
the estimate was 5 years ago, now it is down to 40. O&M, from 
my numbers, were 83 and now they are down to 48. The Port of 
Houston and the Houston Ship Channel is the second total 
tonnage port in the United States. It is the first largest port 
in our country, in terms of foreign tonnage. It serves the 
second largest petrochemical industry in the United States. And 
the Coast Guard has estimated that, if the port shut down, it 
would cost our Nation--our Nation, not just the central part of 
our Nation, our Nation itself--$60 billion per month.
    And I know that we are in tight years when it comes to the 
budget and that the Corps has many, many worthy projects. And I 
want to ask you if using the Harbor Maintenance Trust Fund for 
its intended account, dredging, will ease the financial burden 
on the Corps and allow for more projects to be undertaken. And 
how much would that help if we did that?
    Mr. Salt? General?
    Mr. Salt. Sir, I am not sure if you are talking nationwide 
or if you are talking just with Houston. I think that----
    Mr. Olson. Just, I mean, nationwide, how much would that 
money help? I mean, certainly, we would love to have it all 
come to Houston, but I am not under any illusions that that is 
going to happen.
    But how much would that--I mean, that trust fund was set up 
for dredging, and, unfortunately, we have used that money for 
all sorts of other things. So how much would that help if we 
actually stuck to our guns and used it for what its intended 
purpose was?
    Mr. Salt. Sir, obviously it would help in dealing with the 
backlogs in the harbors that we are talking about, yes, sir.
    Mr. Olson. General Van Antwerp?
    General Van Antwerp. Well, there is, I understand, around 
$5 billion or more in the Harbor Maintenance Trust Fund, so it 
would be very useful.
    We did recognize in your particular harbor the very much 
needed for the United States. And that is why it was included 
in the Recovery and Reinvestment Act at a level of $87 million. 
So it is recognition for that individual port. But I think the 
Harbor Maintenance Trust Fund, you know, the dollars are there 
and could be used.
    Mr. Olson. Well, thank you for that, sir. I mean, certainly 
it is not the--if you had to design a port, having all that 
silt coming down from the river up above wouldn't be the place 
to design it. It does need constant maintenance, and we greatly 
appreciate all you have done there.
    I would like to also talk a little bit about the Inland 
Waterways Trust Fund. The administration's proposal was to 
increase the trust fund through a lockage fee. And that was 
mentioned in your testimony, Mr. Salt.
    That idea has been rejected by the Congress in the past. 
And, as I understand it, talking to some of the operators on 
the inland waterways, the lockage fee could more than double 
the taxes paid by the industry and would increase the cost of 
shipping their commodities.
    The Inland Waterways User Board and the Army Corps have 
been working with the industry to revise the capital projects 
and the business model to improve construction and funding of 
prioritized waterways. And do you think it would be more 
prudent just to wait until they have developed a solution 
before imposing a lockage fee?
    Mr. Salt. Sir, I think we have made a proposal, and we look 
forward to working with the Congress and the users, as I 
mentioned in my testimony, as we try and find a solution to 
this.
    I think Congressman Hare mentioned in his testimony in 
terms of the backlog and the need to find a way to resolve 
this. I think the administration is committed to trying to find 
a way, obviously with the Congress and with the affected 
interests.
    Mr. Olson. Thank you for that answer, sir. I have my doubts 
about the lockage fee. But, again, I would encourage you to sit 
down, you know, the users and the Corps and yourself, and try 
and work out a solution.
    And I yield back the balance of my time. Thank you, Madam 
Chair.
    Ms. Johnson. Thank you very much.
    Ms. Edwards?
    Ms. Edwards. Thank you, Madam Chairwoman.
    And thank you for your testimony today, gentlemen.
    Many of us recognize the critical role of the Army Corps in 
our efforts to address the deep impacts of climate change on so 
many of our communities and on our waterways, and these all 
fall under your responsibility. And yet, Mr. Salt, last 
Congress, your predecessor testified before the Committee's 
hearing on climate change and suggested that the Corps was 
undertaking, quote, "risk-based planning" to consider 
uncertainties such as the effects of climate change on Army 
Corps projects.
    How is the President's fiscal year 2010 request for the 
response to climate change at Corps facilities similar to or 
different from what was described to the Committee last 
Congress?
    And I wonder if you could describe in a little bit more 
detail the practical and consistent and cost-effective 
approaches and policies that you will now consider under the 
fiscal year 2010 budget.
    Mr. Salt. Ma'am, that is a huge question, and----
    Ms. Edwards. I know. And we just have 4 minutes, so----
    Mr. Salt. Our budget includes a $5 million new proposal to 
begin climate change adaptation, to take it out of the thinking 
about climate change into what are we going to do about climate 
change.
    The near-term opportunities are to deal with our project 
operations. And we actually have quite a bit of emerging data 
on areas like change in snow melt rates, the timing and the 
amounts of snow melts. And so we are contemplating, if Congress 
appropriates these funds, that we would be able to proceed with 
pilots that would result in examples of how we would adapt 
primarily with operations.
    As we move beyond that, with sea level rise and the impacts 
we talked about earlier with some of our coastal issues, with 
the changes in our rivers, the impact on our infrastructure, 
the Corps' infrastructure, is enormous, I think both in terms 
of the Principles and Guidelines that Congress asked us to work 
on.
    As we consider additional emphasis on this, it is going to 
be a major part of our policy initiative and budget initiatives 
probably for the entirety of this administration.
    Ms. Edwards. And would you say that that is a marked change 
from what was done by the Corps previously around the areas of 
climate change?
    Mr. Salt. I would say the Corps is one of the leaders in 
thinking about climate change and doing the analysis. What we 
are now trying to do is take it from the scientists and move it 
to the adaptation part of the climate change.
    We are looking beyond adaptation, we are looking at 
modifying Corps projects to be more energy-efficient, less of a 
carbon footprint. Across the whole spectrum of the climate 
change issues, I think all of these are important policy 
initiatives of the administration. And I would look for a 
growing interest in this area throughout the administration.
    Ms. Edwards. And so where would you say that the strategy 
or analysis of using risk-based planning models falls now in 
the Corps' view about how you are viewing your budget and 
expenditures for climate change?
    Mr. Salt. I want to let the Chief talk about the risk-based 
approach in the Corps. Basically, you take a look at the 
various uncertainties, climate change has some huge 
uncertainties, and so you take those uncertainties, and then 
you examine the risks across the full spectrum of those 
uncertainties and then try and come up with an analytical 
process that allows you to make the best investments as you 
move forward.
    Ms. Edwards. General, do you have a comment?
    General Van Antwerp. Yes, ma'am. I will put it in the 
context of the levees down in Louisiana. We know that we could 
expect some sea level rise due to climate change, and so you 
have to plan that in. If your levee is going to be a 24-foot-
high levee to provide 100-year protection, 25 years from now, 
50 years from now, that may have to be either reworked several 
times or you can supercharge it right now and make it so that 
it will last longer under those conditions.
    So that is the risk. And then you, of course, have the 
cost; with that goes additional costs.
    Actually, in Louisiana we are planning for upgrades, the 
next upgrades of that levee system in the 25- and 50-year mark.
    Ms. Edwards. Okay.
    Thank you, Madam Chairwoman.
    Ms. Johnson. Thank you very much.
    Mr. Ehlers?
    Mr. Ehlers. Thank you, Madam Chairwoman.
    I have a few questions about the Great Lakes. Obviously, 
something of a huge concern to the Great Lakes community and 
particularly the fishing industry and the non-industry fishing 
is the Asian carp.
    What is the status of the barriers? We have been going 
around and around with you folks for far too long. It seems to 
me it wasn't that difficult a construction project. Do you have 
good news? Are they both finished?
    General Van Antwerp. They are finished. It is whether or 
not we can utilize them to their full capacity, because there 
still is experimenting going on to see its effect on the 
navigation industry and other things because of the charge 
associated with the fish barrier.
    But they are operating. The fish barriers are complete.
    Mr. Ehlers. They are completed, they are operational.
    General Van Antwerp. To my knowledge. I really need to take 
that for the record and get back with you on the level of 
operation of them. But we were operating them below their 
capacity because you can increase the charge, as I am sure you 
are aware.
    Mr. Ehlers. You mean voltage, not charge.
    General Van Antwerp. The voltage, right.
    Mr. Ehlers. Okay. The replacement lock at Sault Ste. Marie, 
I understand you are at least moving dirt, or are you further 
along than that?
    General Van Antwerp. I am going to have to get back with 
you on that. I am not sure where we are.
    Mr. Salt. Sir, I would tell you that I believe there is a 
contract this year, on the funds that were provided this year. 
Because of the benefit-cost ratio for that project, it is not 
included in the fiscal year 2010 budget.
    Mr. Ehlers. It is not included, you said?
    Mr. Salt. That is correct, sir.
    Mr. Ehlers. I was understanding it was. Well, if you can 
let me know on that.
    The Great Lakes Restoration Initiative, which is the EPA 
will be in charge of implementing a $475 million project, does 
any of that go to the Corps, or are you not involved in that at 
all?
    Mr. Salt. Sir, I am not aware of any of the EPA funds that 
have been distributed to the Corps. We have contributed our own 
appropriated funds, including the fish barrier that you 
mentioned before, towards that. We have just started our 
discussions with EPA, and I don't know if--I think it is still 
possible that some of that would come to the Corps, but I don't 
know that any has been provided to us at this time.
    Mr. Ehlers. And, finally, the dredging problem in the Great 
Lakes. As you know, the commercial shipping has been hampered 
or they have reduced their loads because they can't get into 
and out of the harbors. How are you coming along on getting 
caught up on the dredging?
    General Van Antwerp. We were able to--under the stimulus 
package, or the Recovery Act, include $400 million in there. 
This certainly wasn't all for the Great Lakes. So we are able 
to get at some of the more crucial dredging requirements.
    And, sir, I do have an update on Sault Ste. Marie. The 
fiscal year 2009 appropriation was $17 million. The last event 
that we have had was awarding the coffer dam contract. They are 
excavating for that now, and you are absolutely right on that.
    Mr. Ehlers. Okay. What is the estimate on how long that 
will take? Do you happen to know that?
    General Van Antwerp. Generally, a project of that nature is 
probably a couple-year project. But there are no fiscal year 
2010 funds in the budget. That was correct also.
    So the coffer dam normally takes probably a year to year 
and a half, but there are no funds in fiscal year 2010 for that 
project. There is a capability of $123 million.
    Mr. Ehlers. Okay. Well, I hope you are able to finish all 
these before I die. And I am getting fairly old, so I would 
appreciate speeding it up.
    Thank you very much. I yield back.
    Ms. Johnson. Thank you very much.
    I am going to ask Ms. Norton if she will come take charge 
as we go vote.
    But before I leave, I would like to say that I have been a 
very strong and consistent supporter for flood control for 
Dallas, Texas. And we ran out of our luck last week and had 
quite a bit of flooding. Are you aware of that?
    General Van Antwerp. Yes, ma'am.
    Ms. Johnson. And I know that we are in the process of 
trying to move forth a little bit with some of that correction, 
but I wonder if you could give me any kind of a progress report 
as for a timetable.
    General Van Antwerp. Well, one of the things we had last 
week was a pump failure of a locally operated pump. We are 
looking at whether we can use some of our emergency funds to 
assist in getting that back online for the next event.
    As we looked at the Trinity Flood Control project--is that 
your question, ma'am? Along there? There are a couple of 
milestones, and I reviewed them today. And on Thursday 
afternoon we are going to meet with you. I think General Cox 
will meet with you, unless you can make the 2 o'clock meeting.
    We have a mark on the wall for April 20, to make the 
decision whether or not it is feasible to have the tollway 
inside of the levee system or on the northern levee system. So 
we have a way ahead. We are working with the local authorities. 
And I think it is a good plan. We will lay the timetable out on 
Thursday.
    Ms. Johnson. Thank you very much.
    I will mail out some of the questions that I have.
    I am going to turn it over to Ms. Norton so we can go vote.
    Ms. Norton. [Presiding.] I thank you, Madam Chair. And I am 
just going to sit here to ask what I hope will get us simply a 
verification of a matter.
    We have always worked very closely with the Corps and very 
much appreciate the work you have done here. Of course, that 
work tells us a lot about pre-home rule in the District, 
because much of the infrastructure, for example, the sewer and 
water infrastructure--and the Corps is deeply involved in even 
home rule in the District of Columbia.
    One way has to do with the FEMA maps, where the Corps had 
been using a temporary structure rather than levees, because 
the Federal presence at the Mall is in a flood plain. Now, the 
Federal Government--one part of the Federal Government tells 
the other part of the Federal Government--I guess it is Mr. 
Salt--one part tells the other, "You have to put real levees in 
here," and all agreed that that would be done.
    I am writing because the city informs me that, while they 
were forced to begin some work by FEMA, and although this 
project was quintessentially shovel-ready, that it hasn't been 
identified by the Corps for work, although I can't think of a 
more classic stimulus. In any case, I don't care where the 
money comes from.
    We have searched your budget, and I simply want 
verification that what we have found, which is $6.79 million I 
believe, is for Federal responsibility and you are accepting 
Federal responsibility for this Federal project in the middle 
of the worst downturn.
    Obviously, the District would not have gone forward since 
only a tiny, tiny fraction of what is not in the Mall, where we 
have few homeowners, is all Federal stuff. I just want to--when 
I saw that, particularly given the fact that the District still 
thought that it was on the hook and I was advising it, "Maybe 
you ought to stay on the hook," rather than simply proceed to 
do the work of the Federal Government as to who is the only--
the only entity I know that can write a check these days is the 
Federal Government. So then we said, "Let's do our homework," 
because that didn't sound like the Army Corps to just leave us 
out here stranded.
    Is this D.C.--it is called D.C. Flood Protection Project 
$6.79 million for the full cost of the levee project mandated 
by the new FEMA maps?
    General Van Antwerp. That will get us to the 100-year 
protection, or what we call 1 percent. So it does qualify.
    One of the things--the FEMA maps are going to be updated in 
November. So what we are looking at with the District is to 
sign a Memorandum of Agreement which will allow them to start 
on the design. And we think this probably has to be between the 
Park Service, the city, and the Corps.
    Ms. Norton. Yes, because they did a design on their own 
dime. And I take it they will be reimbursed. Because then the 
Corps and the Park Service said, we would like a more expensive 
version. And apparently some of that work has to, therefore, be 
done again.
    So I take it that the District will be--I think they may 
have spent as many as $2.5 million--that they will be 
reimbursed for that expense.
    General Van Antwerp. Right. And that is what the memorandum 
would do. It would allow them to go ahead so that work is 
started, so that, as I understand it, that then FEMA can allow 
no additional flood insurance. Even though it is not finished, 
it is started. That is what the Memorandum of Agreement will 
address. We are working with the city and the Park Service to 
get that done.
    Ms. Norton. Because they will then have assurance that the 
work will continue because the Corps is going to pick up the 
cost.
    And to the extent that the District has put out any money 
on threat from FEMA, they--and that is why I look at this $6.79 
million, which is a little more than I expected. That is 
because the District has had to do some outlay in the meantime. 
Is that correct, sir?
    General Van Antwerp. Right. And that is all-inclusive and 
will bring this to the 100-year protection, that $6.79 million.
    Ms. Norton. Well, the District has put out money on its own 
that it would--on a Federal project. I am just trying to 
understand whether this----
    General Van Antwerp. It will be a reimbursement.
    Ms. Norton. Thank you.
    General Van Antwerp. Right, right. It will be a 
reimbursement. And that is what the memorandum will do, is 
create the conditions of that reimbursement.
    Ms. Norton. All right. This is a hearing very much worth 
attending, because you made me do my homework. I came thinking 
I am going to have to ask my friends from the Corps how could 
they do that to us.
    And I have come on behalf of our own city and, if I may say 
so, the 20 million visitors who come every year and the 200,000 
Federal workers who work here, on behalf of all of them, I 
appreciate that the Corps has stepped forward on this important 
matter. Thank you very much.
    And the hearing is now adjourned.
    [Whereupon, at 4:37 p.m., the Subcommittee was adjourned.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


</pre></body></html>
